<html>
<title> - BENGHAZI: WHERE IS THE STATE DEPARTMENT ACCOUNTABILITY?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
        BENGHAZI: WHERE IS THE STATE DEPARTMENT ACCOUNTABILITY?

=======================================================================



                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 18, 2013

                               __________

                           Serial No. 113-93

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
82-842                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Patrick F. Kennedy, Under Secretary for Management, 
  U.S. Department of State.......................................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Patrick F. Kennedy: Prepared statement.............     6

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    83
The Honorable Steve Stockman, a Representative in Congress from 
  the State of Texas: Prepared statement.........................    84
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    85
Written responses from the Honorable Patrick F. Kennedy to 
  questions submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    89
  The Honorable Matt Salmon, a Representative in Congress from 
    the State of Arizona.........................................    98
  The Honorable Jeff Duncan, a Representative in Congress from 
    the State of South Carolina..................................    99
  The Honorable Steve Stockman, a Representative in Congress from 
    the State of Texas...........................................   102
  The Honorable Ted S. Yoho, a Representative in Congress from 
    the State of Florida.........................................   106


        BENGHAZI: WHERE IS THE STATE DEPARTMENT ACCOUNTABILITY?

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:12 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The hearing of the committee will come to 
order at this time.
    Since September 11th of 2012, the committee has been 
focused on the tragedy in Benghazi, Libya, where terrorists 
killed four Americans that day, including our Ambassador, the 
first U.S. Ambassador killed in the line of duty since 1979. 
The focus of today's hearing, which is our fourth, is the 
troubling lack of accountability we have seen within the State 
Department since that time. The bottom line is that over 1 year 
later no State Department personnel have been held accountable 
for the Department's failure to protect the Benghazi consulate 
and the U.S. personnel there, not one.
    As we know, there were so many things with the State 
Department's decision-making before the fatal attack. In the 
face of a glaring need, with violence in Benghazi mounting, 
critical security requests from the field were denied at State. 
The Department was asleep on 9/11, and this led to the 
Accountability Review Board to find, in their words, systemic 
failures and leadership and management deficiencies at senior 
levels within two State Department bureaus. But no State 
Department personnel have been fired or even disciplined. No 
one has missed a paycheck.
    Accountability can be painful. Those making bad decisions 
may have long and otherwise good records. But the Department 
cannot have a culture of accountability, which is what any 
well-functioning organization needs, and which is essential to 
protecting its personnel, if no one, literally no one, is held 
accountable for the mismanagement and poor leadership the ARB 
itself identified.
    Now, let's look at how the Department's review process has 
played out. The ARB failed to interview the Secretary of State 
and, improbably, kept responsibility at the Assistant Secretary 
level. Four officials have been placed on administrative leave 
in a process that appears to have violated State Department 
personnel policies. The former Secretary ceded her authority to 
take action against the four individuals, or others, to a new 
Secretary for his review. And finally, four officials on paid 
leave were reinstated and reassigned into unspecified positions 
at this review's conclusion, while at least one individual 
connected with failed management policies has received a 
promotion.
    I wish I did, but I just don't see the level of 
accountability that Benghazi warrants, indeed that Benghazi 
demands. And meanwhile not one terrorist perpetrator has been 
captured, not one terrorist perpetrator has been killed despite 
the President saying that that was a highest priority.
    The terrorist threat in much of the world, unfortunately, 
is only increasing. U.S. facilities, obviously, are tempting 
targets. The State Department, with this committee's 
encouragement, has undertaken some important Embassy security 
reforms. We have put many of those reforms into legislation 
passed out of the committee, which also authorized the 
administration's full funding request for Embassy security.
    But no amount of money will ever overcome poor management 
and poor management is a given without accountability. I would 
ask all committee members, are you comfortable with this 
process that has no State Department official being held 
accountable in any meaningful way?
    Other committees have been working on other aspects of 
Benghazi. Many questions have been answered. This committee 
will continue to focus on accountability, including legislation 
to reform the Accountability Review Board process so that it is 
truly independent and future Secretaries of State, of either 
party, cannot stack the deck. I would hope to have bipartisan 
support for that.
    As we hold this hearing we should focus on the facts, we 
should ask the difficult questions, but work in a way that is 
going to lead to the most productive outcome, and that is 
learning from mistakes and improving the security of U.S. 
diplomatic personnel serving overseas--many, by the way, in 
increasingly threatening surroundings. That is a committee goal 
I know we can all agree upon.
    And I will now turn to Ranking Member Engel for his opening 
statement.
    Mr. Engel. Well, thank you very much, Mr. Chairman. And as 
I have said many times before, I would like to commend you for 
the bipartisan way that you have presided over the committee 
this year and that we have worked together in a very bipartisan 
way. Unlike some other committees, our members have 
consistently conducted themselves with dignity and decorum. And 
I hope we can really continue that today despite the strong 
feelings that many of us have, different opinions on both sides 
of the aisle.
    All of us agree that the deaths of four brave Americans in 
Benghazi on September 11th, 2012, were a terrible tragedy. In 
the aftermath of the terrorist attacks Secretary Clinton 
convened an Accountability Review Board, or ARB, to determine 
what went wrong and to make recommendations to improve security 
at our diplomatic posts. Among those chosen to serve on the ARB 
were Ambassador Thomas Pickering and Admiral Mike Mullen, two 
men with impeccable reputations and unparalleled experience.
    In its report submitted last December the Board found that 
there were, ``systematic failures and leadership and management 
deficiencies at senior levels within two bureaus at the State 
Department,'' that led to inadequate security in Benghazi. 
Secretary Clinton took personal responsibility for the attacks 
and accepted all of the recommendations of the ARB. The State 
Department, now under the leadership of Secretary Kerry, has 
implemented or is in the process of implementing all of the 
recommendations.
    To support the work of ARB and the efforts of the State 
Department I introduced the Embassy Security and Enhancement 
Act of 2013. This noncontroversial legislation, much of which 
was incorporated into the State Department authorization bill 
that the committee recently passed, would help improve 
diplomatic security planning, strengthen physical security, and 
enhance security training.
    Mr. Chairman, our committee has a responsibility to ensure 
that our brave diplomats and aid workers have the security they 
deserve. At the same time, we must recognize, as Ambassador 
Chris Stevens surely did, that there is a certain amount of 
risk inherent in these occupations and that effective diplomacy 
cannot be conducted from behind the walls of a fortress. And I 
have heard a lot of things said about personal blame of 
President Obama, but let me say this: Barack Obama and Hillary 
Clinton are no more responsible for what happened in Benghazi 
than George Bush was for what happened on 9/11 or that Ronald 
Reagan was for what happened to the murder of over 200 of our 
military personnel in Beirut. The Congress cut funding for 
Embassy security. There are lots of fingers to be pointed all 
the way around. But I think we shouldn't point fingers, we 
should try to get to the bottom of it, hopefully in a 
nonpolitical way.
    I look forward to hearing from our distinguished witness, 
Under Secretary of State Pat Kennedy, for whom I have 
tremendous respect, on how we should best manage and mitigate 
risk in our diplomatic posts around the world. I would also 
like to hear from him about the progress made in implementing 
the recommendations of the ARB and about the Department's 
decision regarding the employment status of the four State 
Department officials identified in the ARB.
    Mr. Chairman, in closing I would like to reiterate my hope 
that we can manage a high level of civility in our discussions 
today and that we don't engage in gotcha politics like some 
other committees do. And I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    This morning we are pleased to be joined by the Under 
Secretary of State for Management, Patrick Kennedy. As Under 
Secretary for Management he is responsible for the people, 
resources, facilities, technology, financial operations, 
consular affairs, and security for Department of State 
operations, and is the Secretary's principal advisor on 
management issues.
    Ambassador Kennedy welcome.
    Without objection the witness' full prepared statements 
will be made part of the record. The members will have 5 days 
to submit statements, questions, and extraneous materials for 
the record. And I would like to remind everyone, including our 
witness, that today's hearing is part of this committee's 
continuing investigation and review on these matters, thus any 
willful misrepresentation or false statement by a witness is a 
criminal offense under 18 U.S. Code Section 1001. Indeed, that 
is the case at all of our hearings.
    So I look forward to a full and frank exchange during our 
proceedings today. And, Ambassador Kennedy, would you please 
summarize your remarks at this time?

STATEMENT OF THE HONORABLE PATRICK F. KENNEDY, UNDER SECRETARY 
            FOR MANAGEMENT, U.S. DEPARTMENT OF STATE

    Ambassador Kennedy. Thank you very much, Chairman Royce, 
Ranking Member Engel, distinguished members. Thanks for 
inviting me to testify about the tragic events of September 11, 
2012, in Benghazi, Libya.
    The Department maintains a robust global presence at 285 
locations, many in challenging security environments where U.S. 
national security interests are at stake. Every day we work to 
protect our people and missions by constantly assessing threats 
and our security posture. In all the discussions on overseas 
security over the past year one strong point of agreement is 
that America needs to have a robust presence abroad to advance 
our national security interests, even in dangerous places. The 
Department fights terrorism, enhances the rule of law, fights 
disease, and promotes fair trade.
    These myriad of activities are often accomplished by the 
whole of the United States Government. Over 30 different United 
States Government agencies have a presence overseas in a 
facility that the State Department manages and secures. Almost 
as long as the United States has sent its diplomats out into 
the world there have been those who abhor the freedoms that 
America represents and those who seek to do us harm. The 
attacks in Benghazi in September were a tragedy for the family 
and loved ones of these four patriots, for the Department of 
State, and for our Nation. As the President has made clear, the 
United States is committed to bringing the perpetrators to 
justice.
    We are also committed to taking necessary steps to prevent 
such tragedies in the future. While we can never eliminate all 
risk, our constant goal is to mitigate risk to the maximum 
extent possible. As described in my written statement, the 
Department mitigates risk in large part through two major 
security programs: Physical security upgrades and construction 
of new facilities by the Bureau of Overseas Buildings 
Operations, and technical, physical, and procedural security 
programs implemented by the Bureau of Diplomatic Security.
    Following the September attacks President Obama and 
Secretary Clinton immediately called on the State Department to 
review and improve security. State, with the assistance of the 
Department of Defense, deployed interagency security assessment 
teams to 19 high threat posts to identify security improvements 
that could be enhanced and implemented both in the near and 
longer term. Per statute an independent Accountability Review 
Board was convened. On December 19, 2012, the ARB presented its 
findings and 29 recommendations to the Secretary of State. 
State has already addressed almost all of these recommendations 
and is working diligently with Defense and others to implement 
those that remain, those that require more time and resources, 
such as deploying the full contingent of Marine security 
guards.
    Of note, the Department has already created a Deputy 
Assistant Secretary for High Threat Posts who is responsible 
for focusing attention on those particular locations; ensured 
all high threat posts have adequate life safety equipment; 
design an intensive 10-week Arabic alert language course 
specifically for personnel in the security field that will 
begin next month. We are reinforcing throughout the 
Department's workforce the predicate that security is 
everyone's responsibility. Over the past year we have been 
working with Defense to establish 35 additional Marine security 
guard detachments to increase the size of existing Marine 
security guard detachments and to establish a rapid 
augmentation force in Quantico to add additional Marines to 
posts as the situation warrants.
    Following the ISAT efforts in the autumn of 2012 and the 
ARB report, the Department requested authority to transfer $1.4 
billion from one account to another for an increased security 
proposal, and in the 2013 continuing appropriations act 
Congress funded this request, for which we are deeply grateful. 
These funds are being used to provide facilities for the 
additional Marine guard detachments, as well as for Embassy 
construction and security renovations. We have also begun the 
recruitment of 151 additional diplomatic security personnel, 
and 113 have already been hired.
    We have made implementing the recommendations of the ARB a 
priority so that we can better prevent similar tragedies in the 
future. That is where we are focused at the State Department, 
and I know this is your priority as well.
    The unfortunate fact is our diplomats and facilities abroad 
will face attacks again, as they just did last week in Herat, 
Afghanistan. Since the tragic attacks in Benghazi the tempo of 
threats and attacks against us has not diminished. We will do 
everything we can to deter and mitigate the effectiveness of 
any attack, but we will not, even with the most willing and 
capable governments as partners, ever stop terrorists or 
extremists from mounting attacks against us in all cases. And 
we must continue to operate in places where host governments 
may not always be as willing or capable of fully defending us 
as we would wish. The risks to the United States as a Nation, 
however, are greater if we withdraw than the risks that the 
brave U.S. diplomatic, development, and military personnel on 
the front lines of our foreign diplomacy efforts face.
    I appreciate that there is interest in Benghazi from 
security to ARB implementation to accountability, and I am here 
today to answer your questions. Thank you very much, Mr. 
Chairman.
    [The prepared statement of Mr. Kennedy follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you, Ambassador. I would like to 
focus on the Benghazi Accountability Review Board, and I think 
the administration likes to characterize that as an independent 
board. But was that ARB board really independent? Because the 
Secretary of State selected four of the five members, the 
chairman of the Board, Ambassador Pickering, has told 
congressional staff that you asked him for recommendations as 
to who else might serve with him on the Board. Is that correct, 
you asked Ambassador Pickering for his recommendations as to 
who else might serve on the ARB board?
    Ambassador Kennedy. That is correct, sir.
    Chairman Royce. There has also been reports that you played 
a role in selecting and assigning those Department employees 
who staffed the board and assisted with this investigation. Did 
you, in fact, supervise the assignment of State employees to 
assist?
    Ambassador Kennedy. I had absolutely nothing to do with the 
assignment of staff to the Board, sir, absolutely nothing.
    Chairman Royce. Well, I thank you. But here is a concern 
that we have in terms of the way it was staffed: A well-
conducted investigation demands that there be sensible 
limitations on who can serve as an investigator, and the 
Benghazi ARB members and staff had too many ties, very close 
working relationships with those officials that they were 
charged with investigating.
    Consider, I think, these points. The Assistant Secretary 
for Near Eastern Affairs, Elizabeth Jones, not only worked with 
Ambassador Pickering at the State Department, but also served 
with him on two nonprofit boards. The ARB's lead staffer, also 
known as the ARB's Executive Director, had previously served as 
Chief of Staff to Deputy Secretary William Burns and had worked 
closely with a number of other senior Department officials. 
These relationships can affect impartiality. And many State 
Department employees, including some who have testified before 
this Congress, have questioned the ARB's ability and 
willingness to conduct a truly unbiased investigation. That 
goes to the question of whether this really was an independent 
report. And the other aspect of this that is concerning is the 
way it has been packaged: Packaged as independent.
    I think that in light of these facts it is important going 
forward, given the Department's lack of accountability, that we 
change the procedure for the ARB so that, in fact, we have 
independent voices on it. Otherwise, you undermine the credible 
claims of independence and you create an environment that is 
too clubby. And I think that the legislation that we have put 
forward will change that. I wanted your observation, support, 
or opposition to the measure that we are proposing in order to 
change the way in which ARB boards are conducted in the future.
    Ambassador Kennedy. Mr. Chairman, I believe that this was 
an independent investigation. If one reads, as I know you have, 
the very, very hard-hitting and very, very critical comments of 
the Accountability Review Board, as you noted in your opening 
statement, it is hard for me to accept the fact that the Board 
was stacked as a State Department-favorable Board when they 
rendered the very, very critical opinions that they did reach. 
Three members of the Board, Mr. Chairman, had no relationship 
at all with the State Department. All of the members of the 
Board had decades of experience working for both Republican and 
Democratic Presidents over the period of time.
    It is impossible, I believe, to find someone with State 
Department senior expertise who could be a member of the Board 
with the gravity of someone with many years of experience and 
who is retired who had not worked with people at the State 
Department.
    Chairman Royce. Well, could I interrupt you just for a 
minute here?
    Ambassador Kennedy. Certainly.
    Chairman Royce. We are here today because at the end of the 
day no one is held accountable, and so that is contradictory to 
the thesis that you are advancing here. No one is held 
accountable.
    Ambassador Kennedy. Mr. Chairman, I respectfully disagree 
about the subject of accountability. Four employees of the 
State Department were relieved of their senior positions as 
Assistant Secretaries or Deputy Assistant Secretaries of State 
and are no longer holding those senior positions. I submit, 
respectfully, Mr. Chairman, that accountability includes being 
relieved from your job and assigned to other positions. To me 
that is serious accountability.
    Chairman Royce. Well, the reassignment--no one missed a 
paycheck, all right, no one has been held accountable, and the 
Board did not take this to the upper levels of management, 
where clearly for those who are observing from the outside many 
of these decisions were made. And indeed that is why we are 
here, is in order to try to change a system in which you have a 
hand in suggesting who does the investigation.
    It would be far wiser, and this is one of the most 
frustrating parts about dealing with this State Department, you 
went 4 years without the appointment internally of an 
investigator that would take on this responsibility. And in 
this process, we go through an ARB process in which you choose 
who is going to do the investigation, afterwards you move 
people from one position to another, they are on the paycheck, 
they are on the clock, whether they are working or not, through 
all of this, and there is no accountability in the process from 
our perspective in it. The idea that no one is held accountable 
at the end of the day is the problem, and reassignment just 
doesn't cut it in terms of addressing that issue.
    We are going to go to Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    I am more concerned with preventing another Benghazi-type 
attack in the future rather than worrying about who was brought 
to justice, so to speak, for what they did or didn't do. I want 
to make sure that we do everything we can so that there are no 
future Benghazis. The State Department, led by Secretary 
Clinton and now Secretary Kerry, has put forward a lot of 
effort to improve how it plans and provides resources for 
diplomatic security over the past year. Bottom line, is the 
State Department doing a better job, in your opinion, at 
protecting the men and women serving around the world in 
dangerous locations than it was a year ago? And explain why. 
What have you learned? Obviously things were problematic. What 
have we learned from our Benghazi experience that could not be 
repeated today because we have made changes?
    Ambassador Kennedy. Congressman, I think that one of the 
things that the Accountability Review Board called to our 
attention which was very critical was a question inherent 
potentially in the culture of the State Department, and it is, 
is the focus of security only a management responsibility or 
should the culture of responsibility extend to all elements of 
the State Department? In other words, is security everyone's 
responsibility?
    I think, as the Accountability Review Board pointed out, 
that was an issue. And we have taken steps there through 
assigning diplomatic security agents to brief the Assistant 
Secretaries every day to be part of the Assistant Secretaries 
for the regional offices morning staff meetings, officers from 
all the regional bureaus attend the Diplomatic Security 
Director's morning briefings that lays out all the security 
issues that we are facing around the world. We appointed a 
Deputy Assistant Secretary in Diplomatic Security for high 
threat posts so that we can focus specifically on those posts 
that are particularly endangered, so to speak, because of the 
world events in that part of the world. And that obviously is 
not a static situation. The world conditions change and our 
focus here has to be changed. And so we have also built in an 
institutional program so the regular review of what are the 
highest and most threatened posts so that we can change our 
focus as the situation requires.
    Thanks to this Congress, we have achieved additional 
funding levels and we are deploying. We have already deployed a 
number of Marine security guard detachments in endangered 
periods. And working with the United States Marine Corps we are 
well on the road to increasing the number of Marine security 
guards to 35, and we have enhanced our training programs as 
well.
    So I think that there was a bell that was rung by the 
Accountability Review Board, and the State Department is taking 
many and varied steps to improve what we are doing, and many of 
those activities are already in place.
    Mr. Engel. Let me ask you this. The Pickering-Mullen panel 
called for the establishment of multi-bureau support cells when 
opening or reopening a post, and legislation which I introduced 
which was included in the authorization bill passed by our 
committee last month reflects this procedure. Can you tell us a 
little bit about this?
    Ambassador Kennedy. Yes, sir. It is clear that when you are 
going to open a post in an endangered area, to achieve security 
with a small ``s'' it requires logistics, it requires 
construction, it requires telecommunications, it requires the 
right personnel with the right training. And these multiunit 
support cells have already been established and there is one 
already that it is working on the situation, for example, 
should we have to go back into Syria at some point, the multi-
concept support cell has already stood up and working on that 
question.
    Mr. Engel. Let me ask you one final question. In your 
written testimony you quote from a report completed by the Best 
Practices Panel led by the former head of the Secret Service 
Mark Sullivan, and one of those recommendations is that the 
Diplomatic Security Bureau be elevated and a new Under 
Secretary for Diplomatic Security be created. A similar change 
approved by former Secretary of State Madeleine Albright 
following the east Africa bombings in the late 1990s. However, 
changes were not made. What do you think about this 
recommendation? And if a new Under Secretary is not created 
should the Assistant Secretary for Diplomatic Security report 
directly to the Secretary?
    Ambassador Kennedy. In the sense, Congressman, all 
Assistant Secretaries report directly to the Secretary. But 
given the demands on the Secretary of State's time, which is 
not infinite, there are a number of Under Secretaries in the 
State Department who assist the Secretary of the State 
Department in various channels, whether they be international 
political affairs, international economic affairs, arms control 
and security. And so the Under Secretaries, in my humble 
opinion, form an important assistance function to the Secretary 
in order that he or she has the right amount of time to focus 
on the most critical issues.
    We are still reviewing the results of the Best Practices, 
the Sullivan panel. But I might make one comment on the 
rationale for the current structure in the State Department. 
Security is not just the responsibility of the Bureau of 
Diplomatic Security. Security needs new facility construction, 
it needs security enhancement, it needs medical support, it 
needs telecommunications, it needs training, it needs 
logistics, it needs the right kind of recruiting tools. All 
those activities that are carried on in the State Department 
under the auspices of the Under Secretary for Management form 
the platform that provides a robust security capability at a 
post. And I believe it is very important that there be, on 
behalf of the Secretary of State, a coordinator. That is why 
the Department has organized itself as it has.
    But we will be looking at the recommendation of the 
Sullivan panel. But that is the reason why the Booz Allen 
Hamilton report, which was really a report on intelligence and 
security, and that report, when it said an Under Secretary 
would have also taken the Bureau of Intelligence and Research 
and the Counterterrorism Office and Diplomatic Security and put 
it all into one.
    Mr. Engel. Thank you.
    Chairman Royce. We go to Ileana Ros-Lehtinen from Florida.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    It is indeed pathetic that still no one has been held 
accountable for the disastrous decisions that were made at the 
State Department before, during and after this terrorist 
attack. State continues to merely shuffle the deck chairs and 
employ officials who were part of the management deficiencies 
and systematic failures that were tragically made. Earlier this 
year two senior officials resigned over the IRS scandal, yet no 
one has resigned, no one has been fired at State for the 
misguided decisions related to the September 11th, 2012, 
terrorist attacks. This is unacceptable and it is appalling.
    The administration is asking us to trust it when it says 
that it is doing everything it can to hold our people 
accountable for their pathetic roles in this tragedy and will 
bring those terrorists responsible to justice. Really? Who 
believes this? This is the same administration who deliberately 
politicized the talking points, set out a false narrative 
denying that this was a terrorist attack and attributing blame 
to a video maker. Secretary Panetta has said that there was 
little communication with the White House and President Obama 
during the night of the attack.
    In this time of great need was the President missing in 
action? The White House has failed to answer the question of 
where the President was, what he was doing during the attack, 
and why he failed to call for military backup. Greg Hicks, the 
former Deputy Chief of Missions in Libya, testified that the 
administration gave a stand-down order to prevent a rescue team 
from going into Benghazi to help. Who gave that stand-down 
order? Can you describe the coordination between the White 
House, Secretary Clinton, and Secretary Panetta to give our 
personnel immediate support and assistance? Did anyone even 
lift a finger?
    Libya was a high threat post and this should have made 
continued security requests of our personnel an urgent priority 
within the Department and those requests should have been 
granted immediately. It was not a question of funding or 
capabilities. Their requests were not granted because people 
failed to do their job.
    What assurances can you give us that another high threat 
post as we speak is not currently urgently asking for 
additional security, additional support, and that they are 
being ignored as well? What protocols are now in place to 
prevent this from happening again? The ARB recommended that 
State establish a panel of outside independent experts with 
experience in high risk, high threat areas to identify best 
practices and evaluate U.S. security platforms. What are those 
recommendations?
    In January I asked Secretary Clinton for an itemized 
funding layout and justification of how the Department was 
going to enforce and implement, as she said, all of the 64 
recommendations from the ARB. I have not received that detailed 
report.
    This summer, as we know, the Department closed over 20 
Embassies and consulates in the Middle East and North Africa. 
We should condition aid to host nations based on their full 
cooperation with the U.S. on implementing a plan that will 
protect our Foreign Service officers and Ambassadors overseas.
    So I ask you, sir, what about the stand-down order? What 
was the coordination between the White House and Secretaries 
Clinton and Panetta? And what about the implementation of the 
recommendations, all 64?
    Ambassador Kennedy. Thank you very much.
    I hesitate to speak for the President of the United States, 
but what I have been briefed on is that this is what the White 
House has outlined: As soon as the President learned of the 
attack on our temporary mission facility in Benghazi he 
immediately acted to ensure that our military and national 
security staff could secure and assist our Embassies around the 
globe and reinforce our----
    Ms. Ros-Lehtinen. Can you answer who give the stand-down 
order? Do you have any information?
    Ambassador Kennedy. There was no--there was no----
    Ms. Ros-Lehtinen. What about the coordination?
    Ambassador Kennedy. If I could, ma'am, there was no stand-
down order. I would be glad to----
    Ms. Ros-Lehtinen. Thank you. What about the coordination 
between the Department of State, the White House and Secretary 
Panetta?
    Ambassador Kennedy. There was coordination all night. The 
call came in at about 3:45 p.m. in the afternoon Washington 
time. And the State Department----
    Ms. Ros-Lehtinen. And who decided that there was no reason 
to help, or they had no capabilities, or they had no resources 
to help?
    Ambassador Kennedy. The U.S. military was put on alert, a 
FAST Marine platoon from one location.
    Ms. Ros-Lehtinen. How long did this fire fight take place, 
this terrorist attack, how many hours?
    Ambassador Kennedy. The attack on the temporary mission 
facility----
    Ms. Ros-Lehtinen. Was it 8 hours?
    Ambassador Kennedy. No, the attack on the temporary mission 
facility was about an hour, and then there was about a 6-hour 
lag, and then there was about a 15-minute second attack on the 
annex.
    Ms. Ros-Lehtinen. So 7 hours-plus.
    Ambassador Kennedy. That is correct.
    Ms. Ros-Lehtinen. And so during that time?
    Ambassador Kennedy. The nearest U.S. military forces were 
in Djibouti.
    Ms. Ros-Lehtinen. And in 7 hours----
    Ambassador Kennedy. The distance from Djibouti----
    Ms. Ros-Lehtinen. Really?
    Ambassador Kennedy [continuing]. To Benghazi is about the 
distance from Washington to Dallas, to Dallas, Texas.
    Ms. Ros-Lehtinen. So it would have been impossible----
    Ambassador Kennedy. Yes, there were no--there were no----
    Ms. Ros-Lehtinen. In 7-plus hours----
    Ambassador Kennedy [continuing]. There were no----
    Ms. Ros-Lehtinen [continuing]. There was nothing that we 
could do. So that is the message that we are sending to our 
Embassies. When you are in trouble----
    Ambassador Kennedy. No.
    Ms. Ros-Lehtinen. [continuing]. 7-plus hours, we are in the 
1930s, we can't get to you.
    Ambassador Kennedy. No, no, Congresswoman. We have been 
working with the Department of Defense, but there are only so 
many Department of Defense military installations around the 
world and the distances from those installations--the reason 
why that that is relevant and important goes to our request and 
help in increasing the funding to allow----
    Ms. Ros-Lehtinen. Thank you very much. As was pointed out, 
and I know I am over, this was not a problem of funding. And 
that ARB states it and every witness has said it, it was not a 
problem of lack of funding. It was a problem of lack of resolve 
to do something about the problem that lasted more than 7 
hours.
    Thank you, Mr. Chairman.
    Chairman Royce. We will go to Mr. Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    And unfortunately, Ambassador Kennedy, all of what we have 
just heard in the line of questions that you just had we have 
heard it. They have been asked before at other hearings that we 
have had. ARB has covered it. So here we go again with the same 
questions, the same thing again. And you were cut off, I don't 
know, so to just give you an opportunity if there is something 
else that you want to say. I know you have heard these 
questions a thousand times and people just don't want to know 
the correct answers, but if there is something else that you 
want to add on to that please do so.
    Ambassador Kennedy. Thank you, sir. I would like to cover 
the funding question, if I could. The Accountability Review 
Board was correct about funding, but there are two types of 
funding. There is sort of microfunding and macrofunding. The 
State Department responded to every single one of the requests 
for increased security enhancements in Benghazi, and I would be 
glad to submit for the record a list of all the security 
enhancements that we put into place in Benghazi. Increasing the 
wall. Alarm systems. Cameras. Barbed wire. Drop arm barriers to 
make sure that bomb-laden vehicles could not crash into the 
buildings. So all the micro-enhancements for Benghazi that they 
requested were attended to.
    Then there is there is the macro question, Congressman, and 
that is that the best defense is ability to construct the new 
facilities that you have provided us additional funds for. 
Subsequent to the attack on Benghazi there was a major attack 
on our compound in Tunisia and there was a major attack on our 
compound in Khartoum. Those buildings held out and not a single 
American was killed or injured for over 8 hours until host 
nation security forces mobilized to defend us. But those 
building, in Khartoum and in Tunisia, were the new, modern 
buildings that we have had the assistance of the Congress and 
the funding to build. It is just that on a macro sense, because 
of the increase in the value of the dollar and because of 
inflation worldwide, the program that we started after Nairobi 
and Dar es Salaam we were building eight Embassies a year then. 
Because of the decrease in funding we were building three. 
Thanks to your help the funding is now back up to 8.
    Mr. Meeks. Thank you. Now let's just try to move forward a 
little bit. I mean, and I wish that this hearing was about 
moving forward and talking about how we can make sure that we 
can support our diplomats in a better way. And as the 
Department continues to implement recommendations of the ARB I 
was talking a number of diplomats seem to be worried about some 
of the new security protocols that may inhibit or limit their 
ability to engage with the local community, reach out to key 
contacts, and establish much needed relationships to do their 
jobs well. How can we balance the need for more security 
precautions and the ability of diplomats to reach the local 
community and do their jobs?
    Ambassador Kennedy. I think that is something that the 
State Department works very hard on. And there have been a 
number of articles in the popular press over the last few years 
that describe fortress Embassies that are unavailable to the 
local populace. I think they have actually the purpose and the 
operating style of an American Embassy and our diplomatic and 
other agencies abroad absolutely backwards. Our diplomats go 
out of the Embassy. We don't, except for consular operations, 
we don't demand that people come to see us in our homes, we go 
to their home. We go to the Foreign Ministry, we go to the 
Ministry of Education, we visit the journalists. So our people 
go out all the time.
    But if there is a crisis brewing in a country that comes up 
overnight, a coup or other dangers, what we need is a place 
that our diplomats can in effect hunker down in, and those are 
the new Embassy compounds that we have been building with your 
money. So the new steps we are taking, sir, combined with 
additional diplomatic security professionals and additional 
armored vehicles, will continue to allow our people to go out, 
but have a safe base.
    Mr. Meeks. And let me just ask this in the few remaining 
seconds I have left. What about working, have we changed or 
have we--we have to work with host governments.
    Ambassador Kennedy. Yes.
    Mr. Meeks. And has the Department changed or implemented 
any new procedures in working with these host governments, 
because they have some responsibility for security also, 
especially how do we mitigate the risk of work in the country 
where there is ongoing conflict or instability?
    Ambassador Kennedy. We work very closely with host nations. 
That is one of the principal responsibilities of our Regional 
Security Officers. We also partner with the Department of 
Defense, which has a number of programs which train local host 
nation security forces. The State Department also has under the 
Antiterrorism Assistance Program training programs between the 
Bureau of Diplomatic Security that brings foreign national 
police leaders to the United States for training. So this 
partnership is ongoing and we are working to enhance it.
    Mr. Meeks. Thank you, Mr. Secretary.
    Chairman Royce. Go now to Mr. Smith of New Jersey.
    Mr. Smith. Thank you very much.
    Mr. Ambassador, welcome. Let me ask you a few questions, if 
I could. Were you or Secretary Clinton aware of the compelling 
need for more diplomatic security? And this would parallel 
Secretary Madeleine Albright's repeated denial of security 
requests which led to our Nairobi Embassy being bombed, as well 
as our Embassy in Dar es Salaam. As you recall, Ambassador 
Bushnell repeatedly asked for assistance and did not get it. 
The ARB did not interview Madeleine Albright, it did not 
interview her senior staff. It did interview you because you 
were Assistant Secretary at the time. And it seems to me that 
we stop at the Assistant Secretary level when the people who 
probably have even more knowledge and certainly are to be held 
for responsible accounting of what they did or did not do.
    I asked the Secretary of State a very straightforward 
question and she said the information did not come to her 
attention about the security needs. Is that true? And did you 
know about any of the requests through any means, whether it be 
cables or conversations about Ambassador Stevens' request and 
others at the Embassy for more security help? You weren't aware 
of it?
    Ambassador Kennedy. Congressman, except for one request, 
which I will touch on in a second, all the requests that were 
filed by our Embassy in Tripoli on behalf of the temporary 
mission facility in Benghazi were met. They asked for funding 
for concrete Jersey barriers to increase the perimeter, they 
asked for four steel drop arms in order to make sure that cars 
could not crash through the gate, they asked for increased 
compound lighting, they asked----
    Mr. Smith. Who knew about these requests? That is my only 
question, not what they asked for, who knew about it?
    Ambassador Kennedy. These requests, since they were all 
met, I believe I was generally aware that they were----
    Mr. Smith. So there was no request that went unanswered you 
are saying?
    Ambassador Kennedy. Except for one. There was a request 
that was debated about whether or not we should erect massive 
guard towers.
    Mr. Smith. Okay. Did the Secretary of State know about any 
of that?
    Ambassador Kennedy. No, because the requests were being 
met.
    Mr. Smith. Let me just ask you, why wasn't the senior staff 
and why wasn't the Secretary of State interviewed by the ARB?
    Ambassador Kennedy. That is a question----
    Mr. Smith. We have asked it. We have gotten poor answers 
from Ambassador Pickering.
    Ambassador Kennedy [continuing]. Congressman, you will have 
to ask the ARB.
    Mr. Smith. So did you convey any emails or any information 
you might have had to the ARB in any way?
    Ambassador Kennedy. Other than the reference of talking to 
Ambassador Pickering after he had been named chairman.
    Mr. Smith. So you were interviewed informally?
    Ambassador Kennedy. There are press reports that I was 
never interviewed. That is categorically false. I was formally 
interviewed, I think, for almost 2 hours.
    Mr. Smith. Then why wouldn't they include that. Are you 
listed on the list of interviewees?
    Ambassador Kennedy. Yes.
    Mr. Smith. Okay. Let me ask you, if I could, the deployment 
of foreign emergency support teams, who made that decision not 
to deploy? Was a request made, and who made the decision not to 
deploy?
    Ambassador Kennedy. I was asked did I, in my role as the 
management official of the State Department, need the FEST to 
be deployed, and I said no for two reasons. One, the FEST is 
not a military response unit, it is a command-and-control 
airplane, the kind that we did send to Nairobi after----
    Mr. Smith. So was a request made, and did you approve it or 
deny it?
    Ambassador Kennedy. The decision is an interagency 
decision. I was simply asked do I need the capabilities of the 
FEST. And since it did not bring any military assets to bear, 
it was based in the U.S. and would have taken at least 16 or 18 
hours to get there, there was no need for it.
    Mr. Smith. Okay, because I don't have much time, Mr. 
Ambassador, why was the CIA security team repeatedly ordered to 
stand down after the attack began? And who made that decision?
    Ambassador Kennedy. I am not aware of any CIA security team 
being ordered to stand down, sir.
    Mr. Smith. So why weren't assets that were in close 
proximity to the attack deployed to try to assist our 
beleaguered and now murdered Ambassador.
    Ambassador Kennedy. There was no stand-down order, sir, 
there was never a stand-down order.
    Mr. Smith. Let me ask you a question. How many Benghazi 
survivors were forced to sign nondisclosure agreements?
    Ambassador Kennedy. The State Department does not tell 
people to sign nondisclosure agreements.
    Mr. Smith. Are you aware of nondisclosure agreements and 
how many are there?
    Ambassador Kennedy. I am not aware of any nondisclosure----
    Mr. Smith. Can you tell us where the Benghazi survivors 
are, since access to them has been very, very difficult?
    Ambassador Kennedy. One Benghazi survivor was seriously 
injured in the second attack and is still in the hospital. The 
other four have resumed duties around the world.
    Mr. Smith. Can I ask you with regards to those who, as my 
colleagues, particularly Ileana Ros-Lehtinen and the chairman, 
have so eloquently stated, four people get censored, they 
apparently keep receiving a full pay for a vacation. You know, 
there was that famous scene in the fictional ``Clear and 
Present Danger'' where the President tells, in the Tom Clancy 
novel, it is the old Potomac two-step, people at a lower level 
take the hit while other people who were in the know or should 
have been in the know walk and are never even interviewed.
    How do you respond to that? I mean, to the American public 
and to members on both sides of the aisle we are concerned that 
the lessons learned, because I chaired the hearings on the ARB 
and actually wrote a law to beef up our Embassy security, I was 
the prime sponsor of it, and it is law, and yet we still have a 
situation where we haven't learned more than a dozen years 
later and the very people who should be held accountable aren't 
even interviewed. That is appalling.
    Ambassador Kennedy. There are several questions there. Let 
me try to take them in sequence.
    You ask about accountability. With respect to the four 
individuals, I believe that they were held accountable by 
relieving them of their position. One of them actually resigned 
as Assistant Secretary for Diplomatic Security.
    Mr. Smith. So they got paid the whole entire time of their 
resignation? Where did they work? What did they do? Did they go 
home? Did they come to the Department every day?
    Ambassador Kennedy. Congressman, it is, I believe, an 
essential element of American fairness that I know this 
committee fully supports, because I have seen many of the 
legislation pieces that you have authored, that say that a 
person is entitled to review. And what Secretary Kerry did was 
engage----
    Mr. Smith. Now, did they initiate a review? You know, I am 
out of time. They themselves, did they initiate a review to say 
we have been fairly censored?
    Ambassador Kennedy. Not that I am aware of, sir.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Royce. We go to Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. Before the clock 
starts ticking I would request that I be granted the same 
amount of time as my colleague from New Jersey, Mr. Smith.
    Chairman Royce. Without objection.
    Mr. Connolly. I thank the chair. I also want to thank the 
chair for the tone in which he began this hearing with a very 
thoughtful statement. He is quite correct. All committees of 
Congress, it seems to me, ought to follow your advice, which is 
try to understand what happened and try to make sure we take 
whatever measures we can to prevent this recurrence, not to 
exploit it for partisan political gain.
    I have been involved in this town for a long time. I was on 
the Senate committee staff when the tragedy of Lebanon 
occurred, where our Embassy blew up not once, but twice on 
Ronald Reagan's watch. I don't remember people calling for 
heads to roll, I don't remember an ARB review of what happened, 
although there should have been one. We understood that was a 
national tragedy and we came together. I wish more of our 
colleagues would follow the spirit in which you have set the 
tone of this hearing, Mr. Chairman, and I thank you for doing 
so.
    I would ask unanimous consent also that my full statement, 
including the appendix, be entered into the record at this 
point.
    Chairman Royce. Without objection.
    Mr. Connolly. I thank the chair. And by the way, part of 
that is a statement called ``Fact Versus Fiction'' prepared by 
the Oversight and Government Reform Committee staff that lays 
out many of the common, commonly repeated accusations about 
Benghazi that just aren't true.
    By the way, my good friend from Florida, Ms. Ileana Ros-
Lehtinen, would have us believe money played absolutely no role 
in the decision about security allocations around the world.
    Ms. Ros-Lehtinen. If the gentleman would wield, that is not 
my statement. Those are the witness' testimony and the ARB 
report itself.
    Mr. Connolly. I would remind my colleague that she and I 
were actually at a briefing together where I put that very 
question to Ambassador Pickering, and he most certainly did 
acknowledge that of course money plays a role. Sometimes when 
people say it is not about money, it is about money.
    Let me just ask, Mr. Kennedy, have I got my facts right? In 
Fiscal Year 2011 this Congress cut $327 million from the 
request for diplomatic security, construction, and maintenance?
    Ambassador Kennedy. I believe that is the correct figure.
    Mr. Connolly. $327 million. The following fiscal year this 
same Congress cut another $183 million from the request. Is 
that correct?
    Ambassador Kennedy. I believe that is the correct amount.
    Mr. Connolly. And then in Fiscal Year 2013 it cut $145 
million. Is that correct?
    Ambassador Kennedy. I believe that is the correct amount, 
sir.
    Mr. Connolly. And we kind of came to our senses only after 
the tragedy of Benghazi and restored some of those fundings and 
gave the State Department more flexibility in the end. Is that 
correct?
    Ambassador Kennedy. That is correct and deeply appreciated.
    Mr. Connolly. Thank you, Mr. Secretary. The idea that money 
doesn't play a role is simply not true.
    The chairman indicated in his opening statement that--and 
he is quite right about accountability, and I think all of us 
are a little troubled about that--but he also was talking about 
the follow-up to the Benghazi tragedy and he said no one has 
been captured or killed. And I deeply respect the chairman of 
this committee, but I find it ironic the implicit criticism of 
an administration that did what the previous administration 
could not do for 7 years, they captured and killed the man who 
perpetrated the tragedy of 9/11, the memorial of which we just 
remembered.
    What is the status of the Benghazi follow-up that you can 
share with us? We talk about accountability within the State 
Department, how about accountability for the terrorists who 
perpetrated this heinous crime and engineered the death of our 
four brave fellow Americans.
    Ambassador Kennedy. As the President and the Secretary have 
said, we are engaged in every effort to bring the terrorists to 
justice. This is under the purview of the FBI, assisted by the 
State Department and by the Intelligence Community. And from 
the briefings that I have received, which, unfortunately, I 
cannot go into in detail in this setting, the FBI and others 
are engaged in a full court press on this, no one is leaving 
any stone unturned to bring these individuals to justice.
    Mr. Connolly. What about Libyan security? Part of the 
problem on that terrible day was, frankly, Libyan security, the 
responsibility of the host government, kind of dissolved. What 
is the status of that?
    Ambassador Kennedy. The State Department and the Department 
of Defense are working with the Government of Libya to get them 
a security force that it is capable of doing the job that they 
are required to do under the Vienna Convention. But in the 
interim period of time, we have reinforced our Embassy in 
Tripoli with a significant number of State Department personnel 
and a significant number of U.S. military personnel, who are on 
scene now.
    Mr. Connolly. And the status of our mission in Benghazi?
    Ambassador Kennedy. Our mission in Benghazi is closed.
    Mr. Connolly. Is that because of the security status?
    Ambassador Kennedy. It is because of the security 
situation. There is nothing that we could do at the moment to 
mitigate the security risk of a reopened presence there, sir.
    Mr. Connolly. Mr. Chairman, I think I still have more time. 
Yes, thank you.
    With respect to the ARB in your opinion this was a rigorous 
and hard-hitting report. Is that correct?
    Ambassador Kennedy. Yes, sir.
    Mr. Connolly. Is there anything with respect to the 
recommendations or findings that the State Department is not 
following up on and not trying to implement?
    Ambassador Kennedy. No, sir. We are working through every 
single one. There are 29 recommendations, and as the 
representative from Florida indicated, we have broken that up 
into 64 different tasks in order that we can manage the process 
as efficiently and effectively as possible. And we are working 
through every single one of them. We have completed many of 
them. Others take time because they involve construction or 
other matters. But there is nothing that we are lagging on.
    Mr. Connolly. By the way, this issue of whether an order 
was given to stand down the U.S. military, preventing the 
military from responding, and I have heard you say several 
times not true, no such order was ever given. I would just like 
to make a point for the record that our colleagues on the House 
Armed Services Committee this summer issued a press release 
from the majority staff that said in his testimony LTC. Gibson 
clarified his responsibilities and actions during the attack. 
Contrary to news reports, Gibson was not ordered to stand down 
by higher command authorities in response to his understandable 
desire to lead a group of three other Special Forces soldiers 
to Benghazi.
    Ambassador Kennedy. That statement has also been 
corroborated by the chairman of the Joint Chiefs of Staff, 
General Dempsey, who has also testified that there was no stand 
down order given.
    Mr. Connolly. Thank you.
    And, Mr. Chairman, thank you for your courtesy.
    Chairman Royce. Thank you, Mr. Connolly.
    We go now to Mr. Rohrabacher of California.
    Mr. Rohrabacher. Mr. Chairman, before my time starts 
running here, I would request to have the same amount of time 
as my good friend----
    Chairman Royce. May I suggest that members on the 
Democratic and Republican side, I have kept copious notes here 
and I know exactly how much time everyone has gone over and we 
are dead even. And because we have a lot of freshmen on this 
committee, we are now going to hold everyone to 5 minutes. But 
I am going to start the clock right now.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher. Let us hope that this hearing is a step 
forward in our effort to break down what I consider to be a 
wall of deceit and denial and an attempt to hide the truth from 
the American people about this Benghazi attack. It has been 
over a year and the American people have a right to know the 
truth and they deserve to know it. And this idea that there has 
been a full-court press going on. It is over a year now since 
our Ambassador was murdered, along with the other brave 
Americans who died that night. And don't tell me that is a 
full-court press when we haven't even pointed our finger at the 
people, at the organization, and the finger at the people who 
actually murdered these people. I don't know what a full court 
press means with that.
    About funding, with all due respect to my friend from 
Virginia, Assistant Secretary Lamb, who was responsible for 
making the decisions as to security level in Benghazi, 
testified here, and I know because it was my question 
specifically, did budget considerations play any role in the 
decision as to what level security would be at in Benghazi. She 
said no. And just for the record, she, by saying no and making 
sure that it was a matter of policy and not budget, she has 
been one of the ones relieved of her position. Wonder why she 
got relieved of her position after she was able to testify 
something like that before Congress.
    Mr. Ambassador, we need to know a number of things. I am 
going to go through some questions for you. You know, was there 
an autopsy conducted on Ambassador Stevens' body? Yes or no?
    Ambassador Kennedy. Yes. It was conducted by the U.S. 
military at Dover Air Force Base, sir.
    Mr. Rohrabacher. Right. When there are homicides committed 
against American citizens, are those autopsies then permitted 
to be made public to, for example, congressional 
investigations?
    Ambassador Kennedy. The autopsy was turned over to the FBI, 
which was the investigating agency. I was informed by the FBI 
at one point that he died of smoke inhalation.
    Mr. Rohrabacher. I am not asking what he died of. I am 
asking right now, if there is an autopsy, is that being kept 
from congressional investigators?
    Ambassador Kennedy. I will take that question back to the 
FBI, sir.
    Mr. Rohrabacher. All right. When you talk about military 
units not being dispatched, that there was no stand-down order, 
but they weren't sent because there wasn't enough time, let me 
put myself on the record on this point. And that is, no one 
knew how long this attack was going to exist and go on, how 
long would this attack last. Anybody who did not dispatch 
troops or dispatch aid or assistance of some kind to our 
Ambassador who was under attack had no idea whether it was 
going to be a 1-hour battle, a 4-hour battle, or a 2-day 
battle. And for not dispatching help, that is a dereliction of 
some type of responsibility.
    You keep saying our military team was not ordered to stand 
down. Were there other American Government employees, perhaps 
of the CIA, in Benghazi at that time who could have gone to our 
Ambassador's assistance? Were they ordered to stand down?
    Ambassador Kennedy. There was a team from the annex that 
did go to the temporary mission facility and did relieve the 
pressure on that facility subsequently----
    Mr. Rohrabacher. Yeah. And apparently those Navy Seals that 
got there were ordered not to go. Is that correct?
    Ambassador Kennedy. No, sir, I am not aware of that at all.
    Mr. Rohrabacher. All right.
    Ambassador Kennedy. A quick reaction----
    Mr. Rohrabacher. Not aware doesn't mean no.
    Ambassador Kennedy. No, sir. I mean no. A quick reaction 
team went from the annex to the temporary mission facility main 
building, and then--all of them--and then the annex was 
reinforced by the five State Department security officers.
    Mr. Rohrabacher. So there was no stand-down order even to 
CIA personnel who were there. Okay.
    Now, who made the choice to create this fictitious 
narrative that it was a demonstration that got out of hand and 
not a terrorist attack? Now, we know from the first minutes of 
this attack, we have been told they knew that this was a 
terrorist attack. Yet for a full week we had top-level people 
in this administration claiming it was a movie rage when a 
demonstration got out of attack. Who created that narrative?
    Ambassador Kennedy. I don't know if I can answer the 
question of who created. I can tell you, though, sir, that the 
narrative about the movie did cause an attack----
    Mr. Rohrabacher. Okay, fine. You can't answer the question.
    Ambassador Kennedy [continuing]. On the American Embassy in 
Cairo.
    Mr. Rohrabacher. You can't answer the question.
    Chairman Royce. We are going to have to go to Mr. Cicilline 
from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Ambassador Kennedy, for being here. And I have 
had the opportunity as others to listen to the testimony of 
Ambassador Pickering and Chairman Mullen, to review the report 
and the recommendations and to hear testimony in these last 
several hearings. And I thank you for your testimony today and 
for being here.
    And my first question is, the 29 recommendations that 
involved 64 different tasks, which seem to me very 
comprehensive, I agree with your assessment that this was a 
hard-hitting report and really do respect the work that was 
done and the thoroughness of the report. And as those 
recommendations are being implemented and those tasks are being 
completed, are there any things we can do, Congress can do to 
facilitate the implementation of those recommendations or are 
there any obstacles presently in the way that we should respond 
to to be sure that the work you are doing, the Department is 
doing to implement those can continue appropriately?
    Ambassador Kennedy. I think the most important thing is to 
pass the President's budget request for Embassy construction 
and security that is in the Fiscal Year 2014 budget request. 
That will give us the resources to continue implementing the 
ARB's recommendation, including the necessary new construction 
and upgrades we need to protect our people.
    The second is we have the authority only in certain 
locations around the world do what is called best value 
contracting for guards. We now are forced in many locations to 
take the lowest bidder. Having that in an authorization bill 
that I know that this committee is working on would be very, 
very helpful to the Department and getting the best kind of 
local security force as possible.
    Mr. Cicilline. You know, every time we have a hearing on 
this issue we have to always begin remembering the brave 
American heroes whose lives were lost and I think our solemn 
obligation to do everything that we can to prevent this kind of 
tragedy from ever occurring again and protecting individuals 
who are representing our country all over the world.
    And to follow up on my friend from Virginia's point, the 
panel in this report found, and I quote, ``a more serious and 
sustained commitment from Congress''--and called on ``a more 
serious and sustained commitment from Congress to support State 
Department needs which in total constitute a small percentage 
both of the full national budget and that spent for national 
security.'' One overall conclusion in this report is that 
Congress must do its part to meet this challenge and provide 
necessary resources to the State Department to address security 
risks and meet mission imperatives.
    And as an aside, in Fiscal Year 2011 the budget passed by 
our leadership on the House side provided $327 million less for 
State Department security than was proposed by the Senate, and 
in Fiscal Year 2012, the year of this attack, the House 
Republicans proposed almost $200 million less for State 
Department security than the Senate. So this notion that 
resourcing is important in keeping our diplomatic corps safe is 
something that was identified in the report, correct?
    Ambassador Kennedy. That is correct, sir.
    Mr. Cicilline. And finally, would you address for a moment, 
you know, the Department is obviously operating in very high-
risk, high-threat locations all over the world, including 
places with a lack of clearly defined and capable security 
support from host nations and all of the problems that arise 
from that. And this raises security risks for our diplomatic 
corps and development experts, but also imposes particular 
strains on our existing resources.
    And should we as a Congress begin to think differently, 
working with the executive, about ways that we plan and 
appropriately manage these requirements, sort of in the 
changing landscape of the really high-risk, high-threat 
locations that we now serve all around the world?
    Ambassador Kennedy. I think this is an effort that has to 
be undertaken jointly by the executive branch and the Congress. 
The State Department--and I believe it is outlined in my longer 
statement--has made changes on how we look at high-threat, 
high-risk posts. And I think the two things that are needed 
there, as was pointed out, we need to continue to work with 
host nations to help increase their capability through 
additional training of their security forces in their capital 
cities or other places, and we need additional appropriations. 
And the bill that is passed out of the Appropriations 
subcommittee in the House does exactly that. Because if we can 
construct facilities of the like that we had in Khartoum and in 
Tunis in the attacks that took place right after 9/11, those 
buildings held off the attackers and our people will remain 
safe.
    Mr. Cicilline. You know, it is important that we hold the 
terrorists responsible for this activity accountable, the State 
Department personnel who were relieved of their duties, but 
also Congress has a responsibility to fulfill our obligations 
in assuring that the resources are available to keep our 
diplomatic corps safe. And I thank you.
    I yield back, Mr. Chairman.
    Chairman Royce. We are going to go now to Mr. Steve Chabot 
of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    I want to get right to some questions, but I do want to 
address something that has troubled me for some time. I am 
speaking about the hoops that this committee has had to jump 
through to get the facts surrounding the murders of four of our 
finest public servants. The State Department significantly 
delayed coming forth with information on this matter. When we 
were finally presented with some relevant data a few months ago 
it clearly amounted to what many would call a document dump. 
Thousands of pages of paper in wide disarray and in no 
particular order either in terms of relevance or chronology, 
making it very difficult to actually locate documents that were 
helpful. I brought this up with Secretary Clinton. She wasn't 
particularly responsive. You are welcome to weigh in if you 
would like to.
    Ambassador Kennedy. As I understand it, sir, the State 
Department was asked for every document that it possessed which 
was relevant to Benghazi. And when we receive such requests, we 
try to give out everything for fear, to be blunt, of being 
accused of holding something back. So this generates, when you 
have worldwide security efforts in something as complex as 
Benghazi, this generates many, many cubic feet of documents----
    Mr. Chabot. All right. It was a total mess and not 
particularly helpful. Let me go on because I have limited time. 
On August 23rd the State Department sent a letter to the 
committee which stated the ARB was ``very clear that the only 
people responsible for the lethal attack on our special mission 
compound in Benghazi were the terrorists who orchestrated the 
attack. These terrorists must be brought to justice. The entire 
U.S. Government remains committed to doing just that.''
    Now, no one will argue who was directly to blame for the 
attacks that resulted in the death of those four Americans. But 
as the ARB and numerous congressional hearings have revealed, 
there are other people who need to be held accountable for the 
fact that the terrorist attacks succeeded. By the language of 
this letter, does the State Department really want us to 
believe that the Department's bureaucracy could have done 
nothing more to protect our diplomats?
    Ambassador Kennedy. That was not the finding of the ARB. 
And in the actions that are referenced in the August 23rd 
letter, sir, we are essentially reaffirming the findings and 
the recommendations of the ARB. Four individuals were held 
accountable because they were relieved----
    Mr. Chabot. All right. Well, we will get into that in a 
minute.
    Ambassador Kennedy [continuing]. They were relieved of 
their positions and one of them resigned.
    Mr. Chabot. All right. When former Secretary of State 
Clinton testified in January, she stated repeatedly and took 
responsibility for the attacks. In fact, she stated, ``As I 
have said multiple times, I take responsibility and nobody is 
more committed to getting this right.'' Do you believe 
Secretary Clinton has been held truly accountable for failures 
under her watch?
    Ambassador Kennedy. I think what the ARB did was take from 
the original intent of the Congress, which established the ARB, 
because the Congress in the legislative history made it----
    Mr. Chabot. That is not what I asked you. I asked you if 
you thought that Secretary Clinton has been truly held 
accountable. Yes or no?
    Ambassador Kennedy. She said she was responsible, and I am 
not going to challenge her statement.
    Mr. Chabot. Where is the accountability, though?
    Ambassador Kennedy. There is in every organization, every 
Cabinet department, every agency in effect a line of authority. 
There are people who set the policy and there are those who 
then implement that policy or go back up to senior leadership 
and say the policy cannot be implemented.
    Mr. Chabot. All right. Let me move on. Admiral Pickering 
described four State Department employees as having ``failed in 
the performance of their duties'' with respect to Benghazi. 
Now, let me get this straight. I know this has been covered 
before, but I think it is very important. The only disciplinary 
action meted out to the four who failed in the performance of 
their duties was being put on administrative leave for a while, 
then reassigned to other positions within the State Department. 
Now, their benefits as Federal employees continued during that 
time. Of course, they are going to be subject to Obamacare, so 
arguably that benefit is worse. They haven't missed a paycheck. 
Is that about right? I mean, it seems like pretty pitiful 
discipline to me.
    Ambassador Kennedy. Sir, I believe that being an Assistant 
Secretary at any Cabinet office or being a Deputy Assistant 
Secretary to any Cabinet office is a senior position of grave 
and great responsibility. To be relieved of your position in 
that regard I believe is a serious act of accountability.
    Mr. Chabot. Let me conclude by saying that I think that 
failing to call Secretary Clinton to actually interview her was 
a gross oversight by the ARB and it is really almost 
incomprehensible that they didn't call her as a witness. You 
don't need to respond.
    I yield back.
    Chairman Royce. Just point of clarification, because this 
was brought up with Secretary Kerry when he was here. The 
comment that Mr. Chabot made about the documents--and this I 
think affects us all on the committee--we are still in a 
position where those documents, as you know, a copy is not made 
available to us. We can't copy those documents. You can go down 
there, somebody can see a document. But we can't make copies of 
them. We have asked for a set of those documents. And when we 
asked the Secretary of State, Secretary Kerry said that is no 
policy of mine when we raised our objection to this. This is 
one of the reasons this is ongoing, because we don't have 
copies of those documents. So again, we would like to have 
copies of the documents turned over to this committee.
    Thank you, Ambassador.
    We go now to Mr. Alan Grayson of Florida.
    Mr. Grayson. Ambassador, I would like to ask you a few 
questions about Benghazi, the scandal that never was. Who 
decided that Ambassador Stevens go to Benghazi on September 
11th, 2012?
    Ambassador Kennedy. It was the Ambassador's decision, sir.
    Mr. Grayson. Now, was Secretary Clinton responsible in any 
way for reviewing and approving the in-country movements of 
U.S. Ambassadors, either Ambassador Stevens or anyone else?
    Ambassador Kennedy. No, sir. Under-departmental policy, 
Ambassadors only need Washington permission if they leave their 
country of assignment, not the capital city.
    Mr. Grayson. Now, did the Ambassador when he went to 
Benghazi have a normal security detail in accordance with the 
State Department procedures and rules at that time?
    Ambassador Kennedy. Yes, sir. He had two Diplomatic 
Security special agents who accompanied him from Tripoli to 
Benghazi.
    Mr. Grayson. Benghazi was a diplomatic post, not an 
Embassy, right?
    Ambassador Kennedy. It was a temporary mission facility, 
yes, sir.
    Mr. Grayson. All right. Is it even possible to provide the 
same kind of security at a temporary mission facility as we try 
to provide at our Embassies.
    Ambassador Kennedy. We can never achieve the kind of 
perfect security that we need, other than a purpose-filled 
Embassy. We have a series of standards, and we were working 
through those standards. We are consistently adding. As I think 
in response to the gentleman from Virginia, I offered to submit 
for the record a list of all the improvements that we had made 
to the temporary mission facility in Benghazi.
    Mr. Grayson. Was there any money that was appropriated for 
the purpose of improving that post that was unspent at that 
time?
    Ambassador Kennedy. No, sir. There was no specific money 
appropriated for Benghazi, we were simply taking money from 
other locations. But all the requests that they put forward, as 
I mentioned, save one, which is the guard towers, which were 
determined to be unnecessary and potentially too attention-
getting, all of their requests were fulfilled.
    Mr. Grayson. Now, with regard to the attack itself, 
approximately how long was it between the time that the attack 
began and the time of the Ambassador's unfortunate death.
    Ambassador Kennedy. I would say it was probably somewhere--
it was definitely under 90 minutes.
    Mr. Grayson. Now, was there any kind of military force, 
substantial U.S. military force close enough to even engage the 
attackers within that 90-minute period?
    Ambassador Kennedy. No, sir.
    Mr. Grayson. Was there any force, even if there had been 
more time, that could have rescued the Ambassador, given the 
actual situation on the ground as it was?
    Ambassador Kennedy. Tragically, no, sir.
    Mr. Grayson. Did the White House ever ignore any reports 
regarding this attack?
    Ambassador Kennedy. No, sir, not that I am aware of.
    Mr. Grayson. Did Secretary Clinton ever ignore any reports 
regarding this attack?
    Ambassador Kennedy. No, sir. I personally spoke to 
Secretary Clinton that evening, and Secretary Clinton was being 
constantly briefed by our operations center all evening.
    Mr. Grayson. If you have been the President of the United 
States on that night, would you have done anything different?
    Ambassador Kennedy. What I know that the President did was 
to say to the Secretary of Defense and the chairman of the 
Joint Chiefs of Staff: Do everything that you can. And I think 
that is probably what I would have done, was turn to my senior 
military command authority and tell them to do whatever was 
necessary, which is what he did.
    Mr. Grayson. Regarding the Accountability Review Board 
report, did the Accountability Review Board find Secretary 
Clinton in any way liable for any kind of misconduct?
    Ambassador Kennedy. No, sir.
    Mr. Grayson. Did the Board find the President liable for 
any kind of misconduct?
    Ambassador Kennedy. No, sir.
    Mr. Grayson. Was it, in fact, within their powers to have 
done so if they felt that that were the case?
    Ambassador Kennedy. They certainly could have found the 
Secretary of State, because their charge is to review State 
Department operations. I am not sure that their writ 
legislatively, legally extended outside the State Department. 
But it certainly extended to the Secretary of State.
    Mr. Grayson. Ambassador, are you familiar with the term 
second-guessing? Have you heard that term before?
    Ambassador Kennedy. Yes, sir.
    Mr. Grayson. What about the term 20/20 hindsight? Have you 
heard that term before?
    Ambassador Kennedy. Yes, sir.
    Mr. Grayson. And how about the Monday morning 
quarterbacking? Have you heard that term before?
    Ambassador Kennedy. Yes, sir.
    Mr. Grayson. Good.
    I yield the rest of my time. Thank you very much.
    Chairman Royce. Thank you.
    We will go now to Mr. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Chairman Royce, for your leadership 
to seek explanations for the murders of four heroic Americans 
in Benghazi. It is imperative that we fully understand where 
the systemic breakdown occurred within the State Department so 
that no more American Foreign Service members die while serving 
our country. I agree with Congressman Rohrabacher of 
California; there has been deceit and denial.
    Mr. Kennedy, I appreciate your attendance today. At a 
Senate hearing previously you acknowledged that you denied an 
extension of a 16-person security support team, SST. Is that 
correct?
    Ambassador Kennedy. Yes, sir. That was the team that was 
based in Tripoli, not in Benghazi, sir. It was a Tripoli 
assignment. They were never assigned to Benghazi. And if I 
might--I don't want to take your time.
    Mr. Wilson. No, no, please.
    Ambassador Kennedy. When we first went back into Tripoli, 
our Embassy had been burned out in Tripoli so we turned to the 
Department of Defense and asked them for assistance. Two of 
their officers went in with two of ours and we did a survey. We 
then asked for 16 Department of Defense personnel. And over the 
course of standing up the Embassy, those individuals worked 
themselves out of a job. And in fact, they sent medics, they 
sent communications personnel. We replaced them with State 
Department personnel. They sent someone to do helicopter 
landing zone surveys and to look for unexploded ordnance. They 
did their mission and, therefore, there was no mission left for 
them to accomplish.
    There were eight, in effect, security personnel. The State 
Department also replaced those security personnel with 
personnel on the State Department rolls. However, on the night 
in question, even though this is Tripoli, not Benghazi, six of 
those positions were still based in Benghazi performing--sorry, 
in Tripoli, in Tripoli, excuse me--performing other missions. 
And those are the six that several members have referred to. 
And so the six were still there.
    Mr. Wilson. And indeed we are talking about people within 
the same country. It is just really sad to me that there was 
not protection given or defense to the four Americans killed. 
Additionally, the security support team's commander, Lieutenant 
Colonel Andrew Wood, testified before Congress last year the 
team was created ``to meet the demanding security challenges 
facing the Department of State'' and that they loaned 
considerable support to the State Department security position 
in this uncertain and volatile environment. Additionally, on 
October 2012, Regional Security Officer Eric Nordstrom stated 
that retaining the security team was a primary issue until 
other security resources became available.
    Given this testimony, what justification do you have for 
the denial of the extension of the security support team, given 
the commander and regional security officer's belief that the 
team was a necessity?
    Ambassador Kennedy. It is exactly what the regional 
security officer said: Until other resources became available. 
And the State Department replaced the security part of that 
team with State Department regional security officers and 
trained other personnel that we had on the Embassy compound. So 
they worked their way out of a job, which is the case when we 
borrow personnel from the Defense Department and then we 
replace them with State Department assets.
    Mr. Wilson. Well, it is hard to imagine they worked their 
way out of a job when four people died.
    Ambassador Kennedy. But that was Tripoli, sir, not in 
Benghazi.
    Mr. Wilson. Same country.
    Ambassador Kennedy. We are not in Benghazi.
    Mr. Wilson. Same country, and the availability should have 
been made possible. Additionally, I am very appreciative that 
Chairman Ed Royce has introduced an Accountability Review Board 
Reform Act of 2013, H.R. 1768. It is for effectiveness for 
future Accountability Review Boards. What is the State 
Department view of Chairman Royce's bill?
    Ambassador Kennedy. We have provided comments back, and I 
will be glad to make sure that I make a copy of that available 
to you, sir.
    May I say one more thing about Benghazi?
    Mr. Wilson. Yes, please.
    Ambassador Kennedy. If anybody had asked me to reassign the 
SST from Tripoli, 400 miles away, to Benghazi, I might have 
considered that. But since no one ever asked for that 
relocation, it was the question is had they completed their 
mission in Tripoli, and they had completed their mission in 
Tripoli, and no one asked for a reassignment to Benghazi.
    Mr. Wilson. Regardless of the assignment, within the same 
country now 400 miles, I just have to tell you that I would 
hope that every resource, whatever it is, of any means, that it 
would be provided to protect American lives and American 
Foreign Service employees so brave and heroic.
    Thank you.
    Ambassador Kennedy. I certainly agree with that, sir. Thank 
you.
    Chairman Royce. We go to Mr. Juan Vargas of California.
    Mr. Vargas. Thank you, Mr. Chairman. Again, thank you for 
holding this hearing.
    Ambassador, thank you, too, for being here. My first 
question is this, and you have answered partially. We did have 
four lives that were lost, four American heroes. And you said 
that we were doing everything that we could to catch the 
perpetrators because the perpetrators here really are the 
terrorists. What can you tell us today that is unclassified 
that we are doing to try to catch them? Because that is I think 
where the American people are. What are we doing to catch these 
murderers?
    Ambassador Kennedy. The FBI, the Intelligence Community, 
the State Department are doing everything it can. And 
unfortunately the details, sir, would have to come from my 
colleagues at the FBI in closed session. But they are engaged 
in a total effort to catch them.
    Mr. Vargas. That is I think the important thing, that there 
has to be a total effort. Because I think when I am back home, 
that is what they are asking. They see the bickering back and 
forth here, but they want to make sure that we are, in fact, 
trying to get the terrorists that committed these acts.
    Ambassador Kennedy. The President has said to State, 
Justice, the Intelligence Community, Defense, this is a task 
and we are on it.
    Mr. Vargas. Let me go then to the ARB itself. There has 
been a lot of criticism here of the ARB, a wall of deceit, 
denial. I wrote down a whole bunch of notes here. The two 
people who<greek-l>that deg. headed it were<greek-l>was deg. 
Ambassador Pickering and Admiral Mike Mullen. I remember 
Ambassador Pickering, of course, because he was the Ambassador 
to El Salvador for a while. I think he was appointed there by 
Ronald Reagan. I didn't agree with the policies there at the 
time. I was a Jesuit at the time; I did not appreciate what we 
were doing. But anyway, that being said, I have followed his 
career, and he is somewhat of a Sergey Lavrov for Americans. He 
was probably our most sophisticated foreign policy expert. And 
there has been a lot of criticism of the ARB. Could you 
criticize or not criticize him or this ARB report? Because I 
find it somewhat interesting since he was--I don't know if he 
was a Republican or Democrat, but he seemed to be appointed 
mostly by Republicans.
    Ambassador Kennedy. I mean, I think the membership 
including an officer appointed by the Director of National 
Intelligence, Ambassador Pickering with his long service under, 
as you note, both Republican and Democratic Presidents, Admiral 
Michael Mullen, who rose through the ranks to Chairman of the 
Joints Chief of Staff, served under Republican, Democratic 
Presidents, Catherine Bertini, long service in both--I believe 
it was in the Bush administration, at the Department of 
Agriculture, and at the United Nations. And so this compilation 
of individuals represents the full spectrum, I believe. And as 
I mentioned earlier, when you read the report, it is not 
complimentary of the State Department.
    Mr. Vargas. I did read the report. It was not 
complimentary. But do you think that Ambassador Pickering, 
then, was not up to the task here? Is there some reason why you 
would criticize him and say that they picked the wrong person, 
this is a person that is not capable of not doing a proper ARB?
    Ambassador Kennedy. No, sir.
    Mr. Vargas. Why would you say no?
    Ambassador Kennedy. Because of his experience serving as an 
Ambassador, as the Under Secretary of State, as U.S. 
Representative to the United Nations, and in assignments as 
difficult as Israel, the then Soviet Union, El Salvador.
    Mr. Vargas. Is he deceitful? Is he underhanded? Is he sly? 
Is he any of these other things?
    Ambassador Kennedy. No, sir.
    Mr. Vargas. Let's go to Admiral Mullen. And Admiral Mullen, 
do you think he was someone that was competent to serve on this 
board?
    Ambassador Kennedy. I have had the pleasure of working with 
Admiral Mullen somewhat when he represented the Department of 
Defense and the Joint Chiefs of Staff in senior-level meetings. 
And I find him to be a very hard-hitting, a very intelligent, 
and a very reputable person.
    Mr. Vargas. Do you think he is underhanded, deceitful, sly, 
in any way trying to cover up here?
    Ambassador Kennedy. No, sir.
    Mr. Vargas. Why do you say that?
    Ambassador Kennedy. It is the nature of his career and the 
position to which he rose to.
    Mr. Vargas. Those are my questions. Thank you, sir.
    Chairman Royce. Thank you, Mr. Vargas.
    We go now to Mike McCaul from Texas.
    Mr. McCaul. I thank the chairman.
    And welcome, Ambassador.
    Prior to the attacks in Benghazi and the killing of our 
Ambassador, there were many warning signs and many cries for 
help. April 6, 2012, a crude IED was thrown over the wall of 
the U.S. facility in Benghazi. On May 22nd, Red Cross building 
attacked by the brigades of the blind Sheik, the 1993 World 
Trade Center mastermind. June 6, the consulate was targeted by 
an IED attack that blew a hole in the perimeter. Credit again 
by the brigades of the blind Sheik. And June 11th, the British 
Ambassador escapes a narrow death. March 28, then Ambassador 
Cretz sends a cable to Secretary Clinton requesting additional 
assets. That cable request is denied, and a plan to scale back 
security is made.
    Ambassador Stevens responds with a cable to Secretary 
Clinton requesting additional security resources. And you, sir, 
on May the 3rd terminated effective immediately the U.S. 
mission to Libya use of a DC-3 to provide logistical support to 
Special Forces units assigned in Benghazi. We don't know what 
could have been done with that on that fateful day. Ambassador 
Stevens responds, saying, please don't scale these assets back. 
And he says again in July, the overall security conditions 
continue to be unpredictable with large numbers of armed groups 
and individuals not under the control of the central 
government. You, sir, formally denied that request.
    Finally, August 16th, a classified cable after an emergency 
meeting with the Ambassador, an extraordinary, not ordinary 
event, another request for additional security, saying the 
Embassy cannot withstand a coordinated attack. This final cry 
was not answered. Did you receive that cable, the August 16th 
cable, sir?
    Ambassador Kennedy. Yes, sir, I did. And if I might----
    Mr. McCaul. I have limited time. Did you respond in the 
affirmative or did you decline that request?
    Ambassador Kennedy. This cable, I did not--we did not 
decline the request.
    Mr. McCaul. Was additional security provided on that day, 
weeks before the September 11th attack?
    Ambassador Kennedy. The cable, sir, and I have a copy in 
front of me, it closes with, ``U.S. Mission Benghazi will 
submit request to U.S. Embassy Tripoli for additional security 
upgrades and staffing needs.'' We never received that 
additional request. So there was no way I could respond to a 
request that had not yet been submitted.
    Mr. McCaul. Do you know if Secretary Clinton saw this 
cable?
    Ambassador Kennedy. I do not believe so.
    Mr. McCaul. Let me ask you something about a security 
waiver. On September 11, security at the consulate was deemed 
high on the State Department's threat list. But yet it didn't 
meet the minimum security standards as required by the Congress 
under the Secure Embassies Construction and Counterterrorism 
Act. Somebody at the State Department waived these standards 
known as the Inman standards for our presence in Benghazi. Do 
you know who waived those standards?
    Ambassador Kennedy. It wasn't the Inman standards, sir. The 
Inman standards only apply to buildings that we build. What I 
believe we are talking about here, sir, is what are called the 
OSPB, the Overseas Security Policy Board standards. These are 
the standards that we were using in Benghazi. But since we had 
to move in Benghazi and we did not have time either to build a 
new building or to take the months that it takes to retrofit, 
we took the Overseas Security Board standards as our goal. And 
as I mentioned in response to Mr. Connolly, we were running 
down those standards, adding additional items every day.
    Mr. McCaul. Well, I have a memo that was sent to you from 
your staff saying that we needed to bring the facility up to an 
acceptable standard, to you, Mr. Ambassador. I don't know what 
the action was. Apparently it was not approved.
    I would like to enter this memo, Mr. Chairman, into the 
record.
    Chairman Royce. Without objection.
    Mr. McCaul. Finally, I have got limited time. I have talked 
to sources on the ground that fateful day when the Marines were 
deployed from Rota, Spain, into Tripoli and were asked to 
deplane and change into civilian clothing and that that mission 
was delayed by several hours.
    First of all, why wasn't this plane with Marines that could 
respond possibly in a timely manner sent to Benghazi? Why 
wasn't that done? And then, secondly, since it was sent to 
Tripoli, why was it delayed by hours so that they could deplane 
and change into civilian clothing?
    Ambassador Kennedy. First of all, by the time the Marines 
were mustered and that plane was on route, we had already 
evacuated our personnel and we had closed our facility in 
Benghazi. So there was no purpose of them going to Benghazi 
because there were no Americans left there.
    Mr. McCaul. So the plane had gone straight from Rota to 
Benghazi, in the 8-hour span of the attack, you are saying to 
me that they could not have responded in a timely manner?
    Ambassador Kennedy. The plane, sir, was moving to Tripoli 
on the 12th, not on the night of the 11th.
    Mr. McCaul. Let me conclude that I think more people, 
higher-ups, should be held accountable for what happened that 
day.
    Chairman Royce. We are going to go now to Mr. Joseph 
Kennedy.
    Mr. Kennedy of Massachusetts. Thank you, Mr. Chairman.
    Mr. Ambassador, thank you for your service and for 
testifying today. If you needed a second to respond or to 
finish the question, I will give you that time.
    Ambassador Kennedy. If I could add just two things to what 
Mr. McCaul asked. First of all, on the DC-3. The DC-3, sir, 
there was not in support of the Special Forces detachment. When 
we opened first in Benghazi and then later relocated to Tripoli 
there was no commercial air service available at all into 
Libya. No commercial air service. So we pulled an aircraft from 
Afghanistan and it was running shuttles into Iraq. It was never 
based there, it was based in Malta at that point. When 
commercial air service was established there was no longer a 
need for that aircraft. So it had nothing to do with support of 
the Special Forces, except when they came into Tripoli the 
first time they flew that plane in.
    Mr. Kennedy of Massachusetts. Thank you, sir. Thank you, 
Mr. Ambassador. And again thank you for your service. I want to 
just begin by recognizing the memory of four brave Americans 
who did give their lives in service to our country that day and 
say that I think the best thing we can do is, obviously, ask 
some very tough questions about what happened, why it happened, 
and what we can do to try to move forward.
    In that vein, if there are reforms that need to be made to 
our Embassies or our foreign policy and to the ARB process, we 
should make them. But the focus should be on lessons learned 
and moving forward, not focusing on perceived imperfections 
with and assigning political blame for the highlights of the 
day.
    And to that end, Mr. Ambassador, I was wondering if you 
might be able to enlighten me. I believe the ARB process began 
in 1986 after legislation was passed. Is that right?
    Ambassador Kennedy. That is correct, sir.
    Mr. Kennedy of Massachusetts. And, sir, do you know how 
many ARBs have been convened since then?
    Ambassador Kennedy. The count is either 18 or 19, depending 
on whether you count the Dar es Salaam and Nairobi as either 
two or one.
    Mr. Kennedy of Massachusetts. And, sir, if we are going 
with that 18 figure, how many of those were under Republican 
Presidents? Figure 13 sound okay?
    Ambassador Kennedy. I will accept that figure, sir.
    Mr. Kennedy of Massachusetts. Two under Ronald Reagan, 
Honduras and Greece; three under the first President Bush, 
Philippines, Bolivia, and, Peru; eight under the second 
President Bush, Jordan, Gaza, Iraq, Saudi Arabia, Iraq, Iraq, 
Pakistan, Sudan.
    Ambassador Kennedy. That sounds correct, sir.
    Mr. Kennedy of Massachusetts. And, sir, do you have any 
idea during the course of this time of any major reform efforts 
that were done, initiated by Congress of the ARB process?
    Ambassador Kennedy. No, sir.
    Mr. Kennedy of Massachusetts. Okay. So, now, sir, if I can, 
turning to the witnesses, there have been a number of questions 
today about which witnesses were and weren't called. Did you 
have any influence over which witnesses were called to testify 
over the ARB process?
    Ambassador Kennedy. No, sir. Once the ARB started, my only 
contact was to be a witness.
    Mr. Kennedy of Massachusetts. Did Secretary Clinton have 
any influence over who was called to testify before that 
process?
    Ambassador Kennedy. No, sir.
    Mr. Kennedy of Massachusetts. Did the administration 
attempt to influence that process in anyway?
    Ambassador Kennedy. No, sir.
    Mr. Kennedy of Massachusetts. Okay. Now, moving forward, 
you had mentioned, and it is been referenced several times 
today, 29 different recommendations that the ARB found and 
recommended to State Department to try to implement, and you 
have broken that down to I believe it was 64 different action 
steps. Which, given that the focus I believe should be going 
forward what can be done to protect our diplomats as we are 
asking them to represent the United States in continually 
volatile areas of the world, what are the highlights, where 
should Congress be focused? If it is financially, where should 
those resources be directed? If it is through policy, what are 
those policies? If you can do that in a minute.
    Ambassador Kennedy. I think the two most important things 
are the ARB's recommendation that there be capability of 
funding to construct new Embassies of the character and the 
quality of, say, a Tunis or a Khartoum, Sudan, which were able 
to withstand attacks until either our own military forces can 
arrive or until host nation forces muster and do that. And 
secondly is the issue about additional local guard 
capabilities.
    Mr. Kennedy of Massachusetts. Mr. Ambassador, I see in your 
testimony that you indicated that such an Embassy could take up 
to 4 years to site, plan, construct, and finish. Is there ways 
that we can speed that process up? Is that delayed because of 
bureaucracy? Trying to spend 4 years to build an Embassy seems 
like a long time.
    Ambassador Kennedy. That, sir, is the entire from finding 
the land--and you have to buy land overseas for this--through a 
complex process. An Embassy is not just like any old office 
building, as you can imagine, because of the security, both 
technical and physical, we build into the physical plant, and 
that simply takes longer, sir.
    Mr. Kennedy of Massachusetts. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you. We now go to Mr. Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    In its report of the attack, the Accountability Review 
Board found that there was ``unsatisfactory leadership 
performance, systematic failures in leadership, and management 
deficiencies at senior levels.'' It would seem to me in the 
normal world, which would be outside of government, if somebody 
reviewed a business or an entity and found that there were 
deficiencies and lack of leadership and lack of accountability, 
somebody would face the consequences. They would see the music. 
But not so with the government, especially the State 
Department. Four junior employees were placed on leave in 
December for their actions and their judgments related to 
Benghazi. But Secretary Kerry, when he came in, he said, oh, it 
is okay, come on back. In fact, Elizabeth Dibble has been 
promoted to Deputy Chief of Mission in London. No one has been 
held accountable for, as I have quoted the Accountability 
Review Board, ``unsatisfactory leadership performance.''
    And in this case it is not just like missing a memo. People 
have died. I know there are those in the administration who 
says that was a long time ago. But to those four families it 
was a death of four individuals. And when you mess up in 
leadership like this and people die it would seem to me 
somebody has to be, if we can use the word, punished for that. 
But no one has been punished at all in this situation.
    And then you look on the other side. To quote the 
President, here is what he said: ``My biggest priority now is 
bringing these folks to justice.'' Okay. That is what he said a 
year ago. ``My biggest priority now is bringing these folks to 
justice.'' It would seem to me that the President should be 
just as concerned about Americans dying in Libya as he is about 
Syrians dying in Syria. That seems to be the priority now, not 
bringing these folks to justice, because they haven't been 
brought to justice.
    My background is as a prosecutor and a judge. I have seen a 
lot of cases made by a lot of law enforcement, and you are here 
and you have told us, I can't tell you what the FBI, the DOD, 
and all of our intelligence agencies are doing to capture the 
bad guys because I assume it is classified. Well, after a year, 
we can't find these people, but yet a CNN reporter can go to 
Benghazi at a hotel, at a coffee shop and have coffee with the 
suspected ringleader who has been indicted by our Government. 
Maybe the FBI ought to just ask the CNN reporter, how did you 
get ahold of this guy? Why don't we bring him back? I am 
skeptical, and people I represent are skeptical about the 
administration, the State Department, and the FBI not bringing 
these killers to justice.
    My question to you: Do you believe Ansar al-Sharia was 
responsible for the attack on the Benghazi mission?
    Ambassador Kennedy. I think that is one of the questions 
that is still being sorted out. It is possible that it was. It 
is possible it was them and others. That is being sorted out.
    Mr. Poe. Do you think they were involved?
    Ambassador Kennedy. This was----
    Mr. Poe. You are the guy that should know. Do you think 
they were involved or not?
    Ambassador Kennedy. I know that this was a terrorist 
attack. And it doesn't matter to me whether it was Ansar al-
Sharia or Al Qaeda or whoever. These were terrorists. And 
whatever organization they belong to, they are enemies of the 
United States and they must be brought to justice.
    Mr. Poe. Do you think Ansar al-Sharia should be named as a 
foreign terrorist organization?
    Ambassador Kennedy. That is not in my domain.
    Mr. Poe. You have not thought about that. Okay.
    Ambassador Kennedy. But I will take the question back to my 
colleagues.
    Mr. Poe. Well, it would seem like you would want to know 
what group was involved, and it doesn't make any difference to 
you. But do you believe it was terrorists that were involved in 
this murder.
    Ambassador Kennedy. I didn't say I don't care who was 
involved. I am saying that there were clearly a range of 
individuals who attacked our facility that night, and they were 
terrorists.
    Mr. Poe. And you will get back with me on whether you think 
the Ansar al-Sharia should be a----
    Ambassador Kennedy. I will be glad to take that question.
    Mr. Poe. You are aware, of course, on September the 12th, 
our time, they claimed responsibility for this, the next day, 
the next morning.
    Ambassador Kennedy. Yes. And then someone else claiming to 
be Ansar al-Sharia withdrew that claim.
    Mr. Poe. But at the end of the day, here we are. Nobody has 
been taken out, nobody is in custody, nobody is in jail, and on 
the side of the State Department, nobody is in jail, 
accountable for the murder. So whether it is the people who 
were responsible for the killing or the people who may have 
made mistakes about the administration of this, nobody is in 
custody.
    Last question. Have people in the--may I ask the question, 
Mr. Chairman?
    Chairman Royce. I am afraid your time has expired, Mr. Poe. 
But----
    Ambassador Kennedy. Mr. Chairman, can I respond to the 
previous question?
    Chairman Royce. Well, I am going to suggest that we go now 
to Lois Frankel. And, Mr. Poe, if you want to pass your 
question down to one of the other members on the committee, I 
am sure they can ask it.
    And, Ms. Frankel, if you want to allow the Ambassador to 
respond, I am sure he can do it. But we are going to stick to 
the clock. And we go now to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chairman. Thank you for your 
very gracious way of handling these meetings.
    Mr. Kennedy, Ambassador, thank you for your service. And, 
please, if you want to answer.
    Ambassador Kennedy. In response to the last question, 
Congressman, I believe that individuals of the State Department 
were held responsible. Being a Deputy Assistant Secretary of 
State or an Assistant Secretary of State is not, I humbly 
submit, sir, being a junior employee. Those are senior 
positions in the State Department. And for one of those 
individuals to resign as the Assistant Secretary and then all 
of them be relieved of their responsibilities is a serious act 
of accountability, to be relieved at that level.
    And, secondly, Benghazi has taken, even since the events of 
9/11, has taken a serious turn for the worse. Yes, they will 
let journalists in, but they are not letting U.S. law 
enforcement in to arrest people there because the Government of 
Libya is not in control to that degree.
    Ms. Frankel. Thank you, sir. First, I wanted to start by 
saying I know everybody here shares the grief of the families 
who lost their loved ones in this tragedy. And I think we all 
recognize that it is in a large part the work that our 
diplomats do that plays a role in securing the freedoms that we 
enjoy, including this discussion which, with great respect and 
fondness for my colleagues, I don't concur in some of the tone.
    With that said, I want to thank Mr. Joe Wilson and Mr. Dana 
Rohrabacher and, of course, our chair that allowed me to 
visit--Mr. Rohrabacher, we visited NATO, and I went with Mr. 
Wilson to AFRICOM. And I want to say that we did have 
discussions with the highest military commanders about 
Benghazi. And they were all unanimous in saying that there was 
no military action that they thought could have saved the day 
once attack began, which I think is what you did state to us.
    We keep hearing that no one is being held accountable. But 
I do want you to clarify one particular point, which is, did 
the ARB, did they conclude that no individual had breached 
their duty? Was that a finding?
    Ambassador Kennedy. That is correct, Congresswoman. The ARB 
said that two individuals had not carried out their 
responsibilities in the way they could, but they did not find a 
breach of duty. And what Secretary Kerry's decision was, was to 
validate the ARB's decision, but actually go farther than the 
ARB's decision and relieve all four of their senior-level 
positions.
    Ms. Frankel. And I don't want anyone to forget, and I think 
we all understand that the responsibility, the sole 
responsibility, as ARB said, for this attack was on terrorists. 
Is that correct?
    Ambassador Kennedy. Yes, ma'am.
    Ms. Frankel. And I think you told Mr. Grayson that Mr. 
Stevens could move freely about in Benghazi in order to do--he 
was moving freely about in order to do his job.
    Ambassador Kennedy. Yes. Yes. He was authorized as an 
Ambassador to go to any location in his country of assignment 
without Washington approval.
    Ms. Frankel. And, of course, an attack could have taken 
place out in the field.
    Ambassador Kennedy. That is correct. And there is an 
inherent danger to being a United States representative.
    Ms. Frankel. So my final question to you is, just what have 
we learned from this that helps us assess when the conditions 
are just too dangerous for a diplomat to remain?
    Ambassador Kennedy. Our position is--and this is something 
that we are constantly enhancing--is every day we review the 
threat levels at all posts in the world, not only the highest 
threat posts. And if we reach a point where we believe that the 
mitigation tools that are available to us cannot lower that 
threat level down, then we close the post.
    If I might offer you one example. We were in Damascus, 
Syria, continuing to operate there several years ago. We kept 
monitoring the situation. And one morning my Diplomatic 
Security colleagues and I concluded that, given the situation 
on the ground in Damascus, we could no longer mitigate the risk 
sufficiently. I went to see the Secretary of State, and she 
instantaneously gave me approval to suspend operations in 
Damascus and pull out our people. If there is intelligence or 
any other information available to us, that our mitigation 
strategies are no longer valid, then we suspend operations and 
remove our people.
    Ms. Frankel. Thank you, sir.
    Chairman Royce. All right. We are going to Mr. Jeff Duncan 
of South Carolina at this time.
    Mr. Duncan. I yield some time to the gentleman from Texas.
    Mr. Poe. I thank the gentleman.
    One question, Mr. Ambassador. Has any State Department 
employees ever been asked to sign nondisclosure agreements 
after the Benghazi attack?
    Ambassador Kennedy. Not that I am aware of, sir, no.
    Mr. Poe. So you don't know whether they have or they 
haven't.
    Ambassador Kennedy. The State Department does not use 
nondisclosure agreements.
    Mr. Poe. So that is a foreign concept to you, nondisclosure 
agreements, with the State Department?
    Ambassador Kennedy. Well, obviously, we do sign agreements 
not to disclose classified information to individuals who do 
not have classified access. But that is different, I believe, 
than the thrust of your question. You are asking me did we put 
into place specific nondisclosure agreements after Benghazi, 
and I do not believe we did so, sir.
    Mr. Poe. Classified or nonclassified?
    Ambassador Kennedy. No, no, sir.
    Mr. Poe. I yield back to the gentleman from South Carolina. 
Thank you.
    Mr. Duncan. I thank the gentleman from Texas for an 
excellent line of questioning and points made about Americans 
being dismayed that no one has been brought to justice in 
Benghazi, the perpetrators, nor has anyone been brought to 
disciplinary action other than a slap on the hand within the 
Department of State. That needs to happen. Just being removed 
and reassigned to another position is not justifiable. People 
need to lose their jobs over the failures that were admitted to 
here today, were pointed out in the ARB report.
    And I want to thank the gentleman for mentioning and 
acknowledging that it was a terrorist attack. That is more than 
the former Secretary of State was willing to do, sitting in 
that very chair, Mr. Under Secretary.
    A lot of questions remain about Benghazi, questions that 
won't be answered today, but questions that need to be asked. 
What was Ambassador Stevens doing in Benghazi on 11 September? 
Did he have a dinner or a meeting with the Turkish officials? 
What was the substance of those meetings? Was it funneling arms 
from the Libyan rebels to the Syrian fighters through Turkey?
    A great impact on regional security has been the 
proliferation of shoulder-fired missiles or MANPADS, Man-
Portable Air-Defense Systems, leaking out of Libya since weapon 
depots were heavily looted during Libya fighting. Out of 
Libya's 20,000 MANPADS inventory, how many are accounted for 
today? How many had been recovered under that mission going on 
in Benghazi? And how many were stored in Benghazi that 
ultimately fell in the hands of the Libyan rebels and possibly 
Al Qaeda? Can you answer that question?
    Ambassador Kennedy. I will have to get you that information 
for the record, sir. I don't have that with me.
    Mr. Duncan. Okay. The question that I have is, who knew 
what and when? You are familiar with the term NOIWON, sir?
    Ambassador Kennedy. Yes, sir.
    Mr. Duncan. Okay. For the committee, that is a secure 
telephone conference call system between major Washington 
national security watch centers. It is used for rapid 
evaluation of a breaking crisis. Was there a NOIWON initiated 
by the State Department on or prior to 11 September, 2012?
    Ambassador Kennedy. I believe there was. I know there were 
massive interagency telephone calls going on. I can check that. 
But I know that I was on numerous calls with officials from 
other U.S. Government agencies.
    Mr. Duncan. I appreciate that. I am specifically talking 
about NOIWON. So I am going to make a formal request to you and 
the State Department today for the activity logs of the 
Department of State, its op center, and its Bureau of Intel and 
Research for any NOIWON activity prior to and during the 9/11/
2012 timeframe for Libya and specifically Benghazi. I want to 
know who was on the call and what the substance of the call 
was. And we will put that in writing to you as well.
    There are so many questions that need to be asked and 
answered about the disciplinary action at the Department of 
State. Is it true that you required a daily report of the 
personnel in country and that you personally approved every 
official American who went to Tripoli or Benghazi either on 
official business or assignment or a TDY?
    Ambassador Kennedy. I set a cap for the number of personnel 
who were to be in Benghazi, and we controlled, because it was a 
post with----
    Mr. Duncan. But did you require a daily report on all the 
personnel in country?
    Ambassador Kennedy. I don't believe I got a daily report. I 
never remember getting a daily on everyone in country. I would 
get questions from time to time about adding or subtracting 
personnel.
    Mr. Duncan. Just the limited time. Gregory Hicks, former 
Deputy Chief of Mission at Embassy Tripoli, noted that in his 
testimony before. So my question is, do you require that for 
every country or was this is an obsession with Libya at that 
point in time?
    Ambassador Kennedy. At certain posts which are either under 
evacuation or ordered departure status, we keep track down to 
the single number.
    Mr. Duncan. And I can see the merit there. So I am out of 
time. You will reply to my request on NOIWON.
    Ambassador Kennedy. Absolutely. And as you say, you have 
other questions. I would be glad to come see you or any other 
member of the committee individually and engage in a fuller 
discussion.
    Chairman Royce. We appreciate that. We also would 
appreciate those documents because we don't know what legal 
standing you have not to turn them over to us. Thank you, 
Ambassador.
    Now we are going to go to Mr. Brad Sherman of California.
    Mr. Sherman. Thank you, Mr. Chairman.
    There are three regrettable things with regard to Libya. 
First and most regrettable, we lost Ambassador Stevens and 
three others. We were in Benghazi at a time when it turned out 
not to be safe to be there on that day. Second, there was what 
I call talk show error as to the reason that the attack took 
place. And then, third, we haven't been able to bring the 
culprits to justice.
    The gentleman from Texas points out that, well, CNN was 
able to talk to some terrorists in Libya, so why can't we. I 
will point out, very often terrorists make themselves available 
in clandestine meetings with American journalists. Daniel Pearl 
was in just such a situation; it turned out the terrorists 
killed him. But terrorists may allow themselves to come into 
contact with journalists while hiding from our military.
    Has the Libyan Government authorized us to take kinetic 
action against terrorists in Benghazi if we believe that they 
are responsible for the death of Ambassador Stevens?
    Ambassador Kennedy. We are working very, very closely with 
the Government of Libya.
    Mr. Sherman. Can you give me a yes or a no?
    Ambassador Kennedy. Let me take that question for the 
record, sir.
    Mr. Sherman. I would sure like to know the answer. Take for 
the record usually means never get an answer. Because I will 
point out that we were holding over $25 billion of Libyan 
assets. I and others urged that that money be held on to at 
least to cover our costs. Had we done so, we might have a 
little bit of leverage with Libya. Right now all we have is the 
gratitude of the Libyan Government, which wouldn't exist 
without us. That gratitude seems to be insufficient for you to 
be able to give me a positive answer. These are murderers of 
Ambassador Stevens and you can't tell me whether we have the 
right to bring them to justice should we be able to locate them 
and determine who is guilty.
    Now, as to the talk show error, I will simply point out 
that at my town halls, if you had to ask anybody which State 
Department person is responsible for stating on talk shows, for 
the fact that it was stated on talk shows that this was caused 
by a bad movie or a YouTube video, they would say, well, I 
turned on the TV, I saw Susan Rice. It turned out the 
statements she was making were not accurate. I don't think 
there is anybody who observes Washington politics who doesn't 
think Susan Rice has paid a price for the fact that those were 
the talking points she was given. And all of us who have to 
rely on others for the talking points we have know that it is 
our face that is there and if I make mistakes based on my 
staff, it is the voters who will not allow me to have an 
office. I think Susan Rice has paid a price.
    Now let's talk about the most critical decision, and that 
was the decision to have Ambassador Stevens there. As I 
understand it, Ambassador Stevens was not just the authorized 
Ambassador, he was probably in the State Department the person 
most knowledgeable about Libya. Is that generally correct?
    Ambassador Kennedy. I think so, sir. He had served before 
as the Deputy Chief.
    Mr. Sherman. So if we had to have one person in the State 
Department decide whether to take the risk, Ambassador Stevens 
was equipped to do so; he was a hero, he knew the risk that he 
was taking. Now, all of us, every time a soldier goes to try to 
take a hill, they don't know whether it is a 1 percent risk or 
a 99 percent risk, but they know it is a significant risk of 
their life. Ambassador Stevens knew he was risking his life. He 
was a hero in that he put his job first. And now we come back 
and say, well, with hindsight, it turns out to be a bigger risk 
than the Ambassador should have taken.
    Was there any pressure on Ambassador Stevens to go to 
Benghazi or to go to Benghazi knowing the number of security 
personnel that he would be taking with him?
    Ambassador Kennedy. No, sir. We put no pressure on 
Ambassador Stevens to go----
    Mr. Sherman. So he knew where he was going, he understood--
it is very hard to understand Libya--but he understood as well 
as anybody in our government. He understood the number of 
security personnel that were already there. He understood the 
number of CIA personnel that were already there. He understood 
the number of security people he was taking with him. He 
understood Libya as well as possible. He decided to risk his 
life in the service of his country. And then we are told nobody 
paid a price for the decision to take that risk. I think 
Ambassador Stevens paid a price for his heroism. And it is very 
hard for me to say that there was anybody outside Libya who 
made the decision or should have been making the decision as to 
whether Ambassador Stevens went to Benghazi that day. Do you 
have a comment on that?
    Ambassador Kennedy. No, it is the job of an American 
Ambassador to go into harm's way. We try every day to mitigate 
that risk to the maximum extent possible. But it is inherently 
dangerous, as you say, sir.
    Mr. Sherman. Thank you.
    Chairman Royce. We will go to Adam Kinzinger of Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Mr. Ambassador, thank you for being here. We appreciate it. 
I appreciate your service to your country. I also thank, you 
know, soldiers all around the globe for their service to their 
country and especially for those that were involved in this 
incident.
    And, you know, one of the things soldiers and airmen like I 
am are always taught is that your country will always be there. 
As I have said earlier, that your country will move heaven and 
earth to ensure that you will be protected, to ensure that if 
you find yourself under attack they will come and get you.
    I heard a colleague earlier mention that, you know, we need 
answers. This isn't about exploiting this for political gain. 
Somehow implying that, you know, our side of the aisle is just 
interested in embarrassing the administration and just gaining 
in politics here. I take a huge exception to that. And I have 
to get this on the record. Because when four Americans die, and 
I see that there was 7 hours before a first and a second 
attack, and I know that there were military assets nearby that 
within 7 hours could have responded, and I hear the Department 
of Defense even come out and say, well, we never could have 
made it by the 7th hour, but they had no idea that attack was 
coming. And hopefully they didn't know that second attack was 
coming or there would be a whole line of questions about why 
there weren't assets in place in the first place. But when I 
hear that it really bothers me, because my belief as an airman, 
as a pilot myself, and as just a member of the military, is 
that when people die and when there is not a serious military 
response, I would hope that if I was in that situation, the 
House Foreign Affairs Committees would keep having hearings for 
a year or two until they found out what really happened. So I 
think that is important.
    You also mentioned earlier, too, that it doesn't really--
and I know what you meant, but you said it really doesn't 
matter who did it, just that was done, it was terrorism. I 
think it does matter, I think we need answers on that because 
ultimately it gives us a blueprint on who we need to kill or 
capture, which I think is very important. And I hope that that 
is done.
    I had another colleague earlier that asked you if there was 
any force nearby that could have responded between the 
beginning of the attack and by the time Ambassador Stevens was 
killed, and you said no, and that is probably true, there was 
about a 90-minute lag. Again, there were three other Americans 
that died 7 hours later.
    You also mentioned that the nearest military assets were in 
Djibouti. I have been to Djibouti as a Congressman. It is an 
important base and I appreciate that. Are you familiar with 
Aviano Air Base, sir?
    Ambassador Kennedy. I am, sir. And if I said, the reason I 
cited Djibouti is that is what the Defense Department has told 
me. So that is not--I am quoting----
    Mr. Kinzinger. Okay. I got it. I am sure they are aware of 
Aviano as well.
    Ambassador Kennedy. Yes, sir.
    Mr. Kinzinger. But it is 1,049 miles away from Benghazi 
direct flight. Those are F-16s, by the way. They can kind of 
haul. Dallas to Washington, which you mentioned, I think is 
1,330 miles away. So actually Aviano is closer. And there is 
something that we can do called a show of force in which a 
plane comes in, flies very low, and scatters an enemy. And I 
have always wondered why in 8 hours we couldn't have made that 
happen.
    Now, the question on the SST. You made the decision to 
terminate the SST, I believe, and that was as of August 2012. 
Now, you testified today, I believe, that there was a 
replacement to the SST, correct? So that was not a loss of 
capacity?
    Ambassador Kennedy. That is correct. The State Department 
replaced the capacities, and six of the billets that were part 
of the 16 remained in country.
    Mr. Kinzinger. And they were based out of Tripoli.
    Ambassador Kennedy. They were based in Tripoli.
    Mr. Kinzinger. Ultimately responded to Benghazi. So was 
there movement during the attacks from the replacement team to 
Benghazi?
    Ambassador Kennedy. Yes, sir, they did.
    Mr. Kinzinger. And how did they get there? Did they charter 
an aircraft?
    Ambassador Kennedy. Charted an aircraft.
    Mr. Kinzinger. Didn't we have a DC-3 that they could have 
hopped on?
    Ambassador Kennedy. No, the DC-3 was--it was no longer 
there.
    Mr. Kinzinger. Why not?
    Ambassador Kennedy. But the DC-3 was never based in 
Tripoli. The DC-3 was based in Malta. And so when we would have 
had----
    Mr. Kinzinger. But our prior SST would have utilized that 
DC-3, correct?
    Ambassador Kennedy. No.
    Mr. Kinzinger. Who would have? Who is flying that? Not who 
is flying it, but what are we using it for?
    Ambassador Kennedy. The DC-3, in effect, ran a shuttle 
between the commercial airport in Malta and Tripoli before 
there was any commercial airline service established. Once 
commercial airline service was established, U.S. Government 
personnel moved between----
    Mr. Kinzinger. Thank you. But we had to charter an aircraft 
to get that replacement team into Benghazi. And how long did 
that take, do you know?
    Ambassador Kennedy. I can look. I can look at the timeline.
    Mr. Kinzinger. Okay, it took X amount of time. But they 
were able to respond in time--or they were able to respond, 
definitely, not probably in time. It is interesting that 
chartering an aircraft can actually be done faster than the 
military can have an aircraft on alert and respond to Benghazi 
in a short amount of time with F-16 power. So I thought that 
was interesting.
    Thank you for your testimony.
    Mr. Chairman, I will yield back.
    Chairman Royce. Thank you.
    We go now to Randy Weber of Texas.
    [Video shown.]
    Mr. Weber. You remember that, Mr. Ambassador?
    Ambassador Kennedy. I don't ever remember hearing the 
commercial, but I am well aware of it, sir. Yes, sir.
    Mr. Weber. Who didn't answer that call that night?
    Ambassador Kennedy. I believe that the call was answered, 
sir.
    Mr. Weber. Who didn't keep Mary Stevens'--that is Chris 
Stevens' mother's son--safe? Are you convinced that we have 
gotten to the bottom of who is accountable?
    Ambassador Kennedy. Yes, sir, I am.
    Mr. Weber. Would you like the task of going to Mary Stevens 
and explaining to her that four people getting reassigned is 
paying a price?
    Ambassador Kennedy. Sir, they were not reassigned. They 
were relieved of their senior-level positions. That is a 
serious disciplinary action.
    Mr. Weber. You said in your remarks that you presented to 
us, on page 6, that under the Vienna Convention of 1961, I am 
quoting you now, ``We do our part.'' And you kind of intimated, 
where necessary, ``sending Marine security guards.'' Who didn't 
send the Marine security guards into Benghazi?
    Ambassador Kennedy. We had at that point, we and the 
Department of Defense had only enough personnel to deploy 152 
Marine security guard detachments and we had 285 posts.
    Mr. Weber. Do you think that that is an acceptable 
explanation to Ms. Mary Stevens?
    Ambassador Kennedy. It is the facts, sir. And it is also 
part of your helping us get the additional funding that is 
allowing us to increase security.
    Mr. Weber. You answered the question. On page 9, you also 
said regarding the ARB recommendations, and I am quoting you, 
the Department has ``created a Deputy Assistant Secretary for 
High Threat Posts.'' And then you intimate, who undoubtedly 
will send Marines. Well, if the ARB has asked for a new post, 
whose responsibility was that before Benghazi happened? If we 
have created a post just to do that, whose responsibility was 
that? And then you went on to say that you believe it was 
everybody's responsibility, security was everyone's 
responsibility.
    Ambassador Kennedy. That is correct, sir, I did say that.
    Mr. Weber. Okay. So in the report you agreed with the fact 
that there are those who are--you say that were held 
accountable. I call it reassignment. I don't recall your 
question. Was anybody denied pay or benefits of those four?
    Ambassador Kennedy. What the Secretary of State was 
carrying out is a review, and under the American system of 
fairness, we do not, in effect, find someone guilty until the 
review is complete.
    Mr. Weber. You said actually, I am quoting from you 
earlier, you said, ``That is an essential element of American 
fairness.'' That is what you said sitting in that chair. But 
let me tell you this: The American public expects that an 
essential element of fairness is that we get to the bottom of 
this and someone is held accountable. You said that the ARB 
report, and I am quoting what you said here today, is that no 
one had a breach of duty.
    Ambassador Kennedy. That is what the ARB found, sir. That 
is what the statute----
    Mr. Weber. Yet you just sat there and retestified that 
security was everyone's responsibility. What is the difference 
between responsibility and duty?
    Ambassador Kennedy. I don't see a difference.
    Mr. Weber. So there was a breach of duty then.
    Ambassador Kennedy. No, sir.
    Mr. Weber. There was not a breach of duty in your opinion?
    Ambassador Kennedy. No.
    Mr. Weber. And you would be okay explaining that to Mary 
Stevens?
    Ambassador Kennedy. I believe, sir, that there was no 
breach of duty. The ARB found that and I concur----
    Mr. Weber. I am almost done here, Mr. Chairman.
    I would submit to you, Ambassador, that it is Congress' 
duty, your duty, to get to the bottom of this and someone is 
held accountable. And if we don't do that, then we, in essence, 
have had a breach of duty.
    Mr. Chairman, I yield back.
    Chairman Royce. We go now to Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Ambassador, thank you for being here. You are in an 
important position. I am sure you are busy. You are the 
Secretary for Management, correct, Secretary for Management? 
Under Secretary----
    Ambassador Kennedy. Under Secretary for Management.
    Mr. Perry. Yes, thank you for the correction. Would you 
help a friend if a friend were in trouble?
    Ambassador Kennedy. Absolutely.
    Mr. Perry. Okay, so I just want to point out for the record 
that the Secretary had a hand in appointing four of the members 
of the ARB, and according to your previous testimony and 
answers to the chairman that you made recommendations regarding 
those positions or those potential appointees. No question 
regarding that. Do you read your emails when a crisis situation 
is occurring?
    Ambassador Kennedy. I read every email before I go home in 
the evening, sir.
    Mr. Perry. All right, thank you. Should the State 
Department, excepting issues of national security or 
operational security or classified information, be generally 
transparent? Should the Department of State be generally 
transparent, excepting those issues?
    Ambassador Kennedy. Absolutely.
    Mr. Perry. All right. And should Foreign Service and 
military servicemembers have an expectation that the U.S. 
Government is going to do everything it can to ensure their 
personal safety?
    Ambassador Kennedy. Absolutely.
    Mr. Perry. So when did you know based on solid intelligence 
that the rhetoric your agency and the administration was 
telling the American people and the world was incorrect? When 
did you know that?
    Ambassador Kennedy. After the television talk shows.
    Mr. Perry. Well, they went on for weeks, so can you be 
specific?
    Ambassador Kennedy. The information that Ambassador Rice 
used on those television talk shows was based on information 
provided----
    Mr. Perry. Okay, so you are not going to be specific. I am 
holding up, and I am sure you won't recognize this. First of 
all, you are far away, with all due respect. But second of all, 
this is a transcribed copy of an email in which you are 
included and it is as of 12:46 or quarter to 1 on the 12th, so 
a day later, in which Ansar al-Sharia is noted by Assistant 
Secretary Beth Jones. So at that point, per your testimony, you 
knew by that afternoon, since you read your emails at the end 
of each day to be sure, that you knew at that point.
    What did you do----
    Ambassador Kennedy. If I might, sir, Ansar al-Sharia--later 
a spokesperson from Ansar al-Sharia said they were responsible.
    Mr. Perry. I understand that. But at that moment--that is 
later--but at that moment, at that moment you knew----
    Ambassador Kennedy. The next day they withdrew.
    Mr. Perry. But at that moment you knew. What did you do? 
What did you do? You are a manager. What did you personally do 
to set the ship straight on the talking points and the message 
that was going out to the American people and the world? What 
did you do?
    Ambassador Kennedy. I knew at that point that Ansar al-
Sharia's spokesman had withdrawn that claim. And I am, as you 
said rightly, sir, I am a management officer at the State 
Department. When you get complex issues like responsibility 
claims----
    Mr. Perry. When the government of the country understands 
and recognizes it was a terrorist attack, and you already said 
in this committee hearing, in this chair, in this hour that you 
recognized it as a terrorist attack, and you don't do anything 
to change it.
    Ambassador Kennedy. The collectivity of the Intelligence 
Community concluded what they concluded.
    Mr. Perry. That it is a terrorist attack. And for 3 weeks 
your administration, your Department put out to the American 
people that it was not. It was a spontaneous eruption of a 
demonstration. Let me move on.
    You are a manager. Again, you are a manager so you can get 
things done. You are at a high level. Why must this committee 
transcribe--this is an email to you, it is not an email form--
why must we transcribe all the information that we get? Why 
can't we get it and get copies of it? We will make the copies 
of it. Why can't we? Why must we subpoena it? Why aren't you 
forthcoming, you personally?
    Ambassador Kennedy. The chairman has already----
    Mr. Perry. I am asking you.
    Ambassador Kennedy. The chairman has already posed that 
question and I have taken the question.
    Mr. Perry. And what was your answer? What are you doing 
about it?
    Ambassador Kennedy. I am taking the question back to the 
State Department, sir.
    Mr. Perry. But you are in a position of managing. What are 
you going to do? Instead of taking the question, what are you 
going to do to answer it right now?
    Ambassador Kennedy. I am telling you, sir, that I am taking 
the question.
    Mr. Perry. Listen, I don't want to point fingers and it has 
been alleged here. I am not here to point fingers. But I think 
it is abundantly clear after a year to the American people what 
is happening here. This administration, and your Department in 
particular, are stonewalling. They don't want to give up the 
information. They have been doing that since this began. They 
actively misled at the time and continue to mislead now 
regarding the facts. We just want the facts.
    It is apparent that the information that came out regarding 
the talking points did not comport with the President's 
narrative, did not comport with the President's narrative in 
election time with a Presidential election looming, and so they 
had to be changed. That is apparent. It is also apparent that 
the administration continues to hide this fact from the 
American people.
    And with regard to Foreign Service officers, it is apparent 
that if that happens again and it does not fit with the 
President's narrative, they will be left to be killed, 
sodomized, and have their bloody bodies drug through the 
streets for all the world to see instead of having this 
administration find out what really happened.
    Thank you, Mr. Chairman, I yield back.
    Ambassador Kennedy. Mr. Chairman, may I respond?
    Chairman Royce. Yes.
    Ambassador Kennedy. Sir, I have been a Foreign Service 
officer for 40 years. We do everything we can, as I have 
outlined here, to attempt to mitigate the risk to our personnel 
overseas. But being a diplomat is an inherently risky activity. 
I cannot, nor can any of my colleagues, nor can I believe that 
anyone can end that risk. We do everything we can to mitigate 
that risk, but we cannot end the risk.
    Chairman Royce. We are going to Mr. Trey Radel from 
Florida.
    Mr. Radel. Thank you, Mr. Chair.
    Could you tell me about the--we know that the four people 
are relieved of their senior positions. They essentially get 
reassigned somewhere else. Can you tell me what--you got Ray, 
Eric, Scott, Charlene who are the four here--what are they 
doing today?
    Ambassador Kennedy. One of them has been reassigned to a 
lower-level position in the Bureau of African Affairs, one is 
the Director of the Office of Foreign Missions, and the other 
two are in the process of being reassigned to positions of 
lesser responsibility with no worldwide purview.
    Mr. Radel. So these, undoubtedly, unquestionably are not 
higher seniority levels, correct?
    Ambassador Kennedy. They have been reassigned to positions 
of lesser responsibility, yes, sir.
    Mr. Radel. Lesser responsibility. Okay. And quickly, with 
Mr. Raymond Maxwell, I don't understand why he gets put on 
administrative leave when his duties do not include any review, 
approval, or even formations of recommendations regarding 
security resources in Libya. Why is this? How does this guy fit 
in?
    Ambassador Kennedy. Mr. Maxwell was the Deputy Assistant 
Secretary of State in the Bureau of Near Eastern Affairs 
responsible for the Maghreb, meaning the band of countries 
across the North African littoral, including Libya; that Libya 
was within his purview----
    Mr. Radel. Within his purview.
    Ambassador Kennedy [continuing]. As the Deputy Assistant 
Secretary for the Maghreb.
    Mr. Radel. So I think you would agree with me all of us 
here regardless of what side of the aisle we are on, we know 
that it is important to learn from our mistakes. Part of the 
improvements that we on this committee have done, we passed 
some legislation. I worked with Congresswoman Frankel on the 
Protecting Americans Abroad Act, which allows State to hire the 
best of the best when it comes to security, not the cheapest. 
We are proud of that. We have a bipartisan committee here. And 
this is not political what we are doing here.
    We know that it is important to learn from mistakes, but we 
also need accountability, which is why we are here today. We 
need to show the American people who we are beholden to, 
taxpaying Americans, that we are responsible. But it also sends 
a message that being inept will not be tolerated and this will 
never, ever happen again.
    People are dead. There are four men who are dead. The young 
girls will never walk down their aisle with their father at 
their wedding, young boys will never be able to toss a football 
with their dad. And the people who are responsible for this 
have been relieved of their senior positions.
    You had said it earlier, reassignment equals 
accountability. It does not equal accountability. Reassignment 
does not equal accountability. They are reassigned. They are 
being put into another position where they have never missed a 
paycheck, where they are going to have their cushy government 
job, and they are still going to get a pension.
    In the real world, this would never happen. This would 
never, ever happen. They would be fired, they would be 
terminated because they failed. And four people, including an 
Ambassador, are dead. This is unacceptable.
    I hope that in a bipartisan fashion we can in some way, 
shape, or form actually have someone be held accountable, and 
that not only within our own Government, but let's pray that we 
find the people that are responsible for this attack because 
everyone has blood on their hands. It is unacceptable. 
Reassignment does not equal accountability.
    Mr. Chair, I yield the rest of my time. My question was 
answered.
    Chairman Royce. We go now to Mr. Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Ambassador Kennedy, thank you for being here. I agree with 
the Congressmen on my left, or to the left over here, Engel, 
Meeks, and Connolly, that we should focus on making our Embassy 
and personnel safer around the world. However, in order to do 
that we must look at our failures of the past so we do not make 
those same mistakes again. And I want to kind of reference a 
report here: Deputy Chief of Missions for Embassy Tripoli 
Gregory Hicks stated that Secretary Clinton wanted Benghazi 
converted to a permanent constituent post. Ambassador 
Pickering, when he was asked by the ARB and when this was 
discussed, he kind of looked surprised, looked both ways. Does 
the seventh floor know about this? And it brought up 
questioning that they should look at this through the ARB, 
which stands for Accountability Review Board.
    In addition, looking back at the past, the 1999 ARB report 
states that the--issued response to the bombings of the U.S. 
Embassy in Kenya and Tanzania. This report urged that the 
Secretary of State--the Secretary of State--should take a 
personal and active role in carrying out the responsibility of 
ensuring the security of U.S. diplomatic personnel abroad. And 
the Board should have questioned the extent to which the 
Secretary fulfilled or did not fulfill this mandate.
    And again, with Ambassador Stevens making multiple requests 
for security and being denied, in lieu of this report that 
looks in the past so that we don't make those same reports 
again, would you agree that we should have probably questioned 
higher up in the chain of command? And I am going to do you a 
favor, my questions are going to be pretty much yes or no.
    Ambassador Kennedy. Your first question about the permanent 
post in Benghazi, the Secretary of State never said to me 
establish a permanent post in Benghazi. And I would have been 
the person who would have launched----
    Mr. Yoho. Mr. Chairman, I have got this report here. I will 
submit it for questioning. Let me ask--okay, go ahead, the 
second one.
    Ambassador Kennedy. Your second one. The Secretary of State 
does take her responsibilities very, very seriously. As I 
mentioned earlier, when I went to the Secretary of State and 
said the situation in Damascus, Syria, had reached the point 
where we could no longer mitigate the risk, the Secretary 
instantaneously replied take the people out.
    We had no actionable intelligence, as the Director of 
National Intelligence had said, about this threat in Benghazi, 
and therefore, I never went to the Secretary of State and told 
her it was time to leave Benghazi.
    Mr. Yoho. All right, let me ask you this. I am going to cut 
you off. Do you think that the ARB should have questioned 
higher up its question? Yes or no?
    Ambassador Kennedy. That is a judgment for the ARB, sir.
    Mr. Yoho. All right. Who do you report to directly?
    Ambassador Kennedy. I report to the Secretary of State.
    Mr. Yoho. All right. So is it fair to say that you are 
accountable to the Secretary. You said yes. As the Under 
Secretary for Management you are responsible for the people, 
resources, budgets, facilities, technology, financial, 
operations, consular affairs, logistics, contracting, and 
security for the Department of State operations, and as the 
Secretary's principal advisor on management issues. Is that 
correct?
    Ambassador Kennedy. Yes, sir.
    Mr. Yoho. All right. The people under you report directly 
to you, correct?
    Ambassador Kennedy. Yes, sir.
    Mr. Yoho. All right. You oversee their day-to-day 
operations?
    Ambassador Kennedy. Yes, sir.
    Mr. Yoho. They are accountable to you. And you said that is 
correct. If they fail in their job description and it affects 
your Department's mission objective, would that ultimately be 
your responsibility? Yes or no?
    Ambassador Kennedy. Absolutely.
    Mr. Yoho. All right. Would it be a sign of lack of 
management?
    Ambassador Kennedy. Not necessarily.
    Mr. Yoho. Would it be a lack of failure of your job and 
responsibility?
    Ambassador Kennedy. Not necessarily.
    Mr. Yoho. Since you stated that you report directly to the 
Secretary and if you feel that your job duty or subordinates, 
you are saying it is not necessarily your superior's fault 
either?
    Ambassador Kennedy. Yes, sir, correct.
    Mr. Yoho. All right. For the record, Mrs. Clinton was the 
Secretary of State at the time. We all know that. The reports I 
have and when I was present with this committee and we 
interviewed Ms. Clinton, she stated that she requested 
personally for Ambassador Stevens to come to this post, to take 
this assignment. Are you aware of that?
    Ambassador Kennedy. Yes, sir, I am the one who set up the 
appointment between Chris and the Secretary.
    Mr. Yoho. Okay. The reports I have said that the Embassy in 
Benghazi was understaffed and underprotected by the standards 
at the time. Is that correct?
    Ambassador Kennedy. That is the ARB's conclusion.
    Mr. Yoho. All right. Also the reports I read said that 
Ambassador Stevens said there were increased tensions between 
the personnel and local Benghazi population. That is correct, 
isn't it?
    Ambassador Kennedy. That was what Chris reported. But there 
were no threats against the U.S. temporary mission facility or 
against our personnel.
    Mr. Yoho. Okay. Reports also stated that Ambassador Stevens 
had requested increased security on more than one occasion, 
correct?
    Ambassador Kennedy. That is correct.
    Mr. Yoho. Reports said that the request for increased 
security was turned down each time and we know that is correct. 
Who turned those down, do you know?
    Ambassador Kennedy. I reviewed the situation, and every 
request, as I have testified before, every request that was 
made for improvements were okayed and funded with the exception 
of the four guard towers which I mentioned earlier.
    Mr. Yoho. I yield back, Mr. Chairman, thank you.
    Ms. Ros-Lehtinen [presiding]. Thank you, Dr. Yoho. The 
gentleman's time has expired.
    Mr. Meadows is recognized.
    Mr. Meadows. Thank you, Madam Chair.
    Ambassador Kennedy, this gets down to two things. One is 
accountability and the second is trust, and we must have the 
accountability before we can restore the trust of the American 
people in terms of what happened in Benghazi or what may happen 
in the future. So I would like to refocus our attention on 
these four people that you say they have lost their titles. But 
let me be clear, they have not lost any money or any benefits, 
yes or no?
    Ambassador Kennedy. No.
    Mr. Meadows. Okay. So they have gotten paid. They got an 8-
month paid leave while the State Department has done their 
investigation, yes or no?
    Ambassador Kennedy. Correct.
    Mr. Meadows. All right. So they have been off for 8 months. 
I also serve on the Government Reform Committee and I know that 
we have made a number of requests that had gone unanswered, 
really. Were there any adverse--adverse, other than title 
changes and post changes--were there any adverse personnel 
actions that were taken against these four people that 
according to the ARB were systemically involved in 
mismanagement?
    Ambassador Kennedy. The ARB actually, sir, talked about two 
people specifically and two others.
    Mr. Meadows. Okay. But those two people of being part of 
the four, but the two people, did any adverse actions happen to 
those two people other than title changes?
    Ambassador Kennedy. Sir, if I----
    Mr. Meadows. Yes or no?
    Ambassador Kennedy. A title change----
    Mr. Meadows. I understand in your opinion a title change is 
a big deal. But we are talking about four dead Americans, so 
let's look at it. Anything other than that?
    Ambassador Kennedy. Being removed as a Deputy Assistant 
Secretary is a major act.
    Mr. Meadows. Okay. All right. Well, so let me go on. You 
mentioned the consideration of other posts and you mentioned 
two people. It is troubling for me to start to hear reports of 
where these two people are being considered for very high-
profile, secure posts overseas. And knowing that the State 
Department takes about 12 months to go through that, it means 
that that review process had to have started while they were on 
administrative leave. Are you aware of that?
    Ambassador Kennedy. You are correct, sir, that the process 
we assign in----
    Mr. Meadows. So are you aware that they are being 
considered for high-profile, secure positions overseas?
    Ambassador Kennedy. No one----
    Mr. Meadows. Yes or no, are you aware?
    Ambassador Kennedy. I am unaware. They have not been 
assigned anywhere.
    Mr. Meadows. I understand they haven't been assigned. You 
are avoiding my question. Are you aware that they are being 
considered for high-profile, secure positions overseas?
    Ambassador Kennedy. I guess the answer is no. I mean, 
obviously----
    Mr. Meadows. It is either a yes or a no. Are you aware?
    Ambassador Kennedy. Obviously, sir, while this is pending, 
one has to look at the two----
    Mr. Meadows. But you are in charge.
    Ambassador Kennedy. Yes, sir. But there are two options 
here. The Secretary of State, as he expressed in his letter----
    Mr. Meadows. I don't want a narrative. Are you aware, yes 
or no?
    Ambassador Kennedy. Obviously, we had to have options. The 
Secretary of State's letter said he was either going to fire 
them or make another decision. Depending on what decision he 
makes----
    Mr. Meadows. But this is a high-profile post.
    Ambassador Kennedy. I am afraid I don't know this level of 
detail----
    Mr. Meadows. Okay. Well, are you willing as the person in 
charge, you just said you were in charge----
    Ambassador Kennedy. Yes, sir, I am.
    Mr. Meadows [continuing]. Are you willing to report back to 
this committee within 30 days to make us aware? And I am 
assuming from your response that you wouldn't be supportive of 
any high-profile posting for these two individuals, is that 
correct? You would not be supportive of it.
    Ambassador Kennedy. I would not be supportive of any 
position in which these individuals had the same levels of 
responsibility.
    Mr. Meadows. No, that is not what I am asking. A high-
profile post overseas, that is what I am asking, so you are 
supportive of it?
    Ambassador Kennedy. No, sir, I am neither one nor the 
other. I am just saying, sir, that profile and responsibility 
are two different things.
    Mr. Meadows. Well, but that is a judgment call on your 
part. Well, let me go on a little bit further then. This report 
talks about bonuses, between $10,000 to $15,000 bonuses that 
are given to State Department. Up until 2011, those were 
disclosed publicly.
    Ambassador Kennedy. Right.
    Mr. Meadows. It now appears that either you or Secretary 
Clinton have made a decision not to disclose those. Is that 
correct?
    Ambassador Kennedy. I am unaware of that.
    Mr. Meadows. So you are unaware of that. So you would be 
glad to support it. Because it has been suggested that some of 
these people in the ARB got bonuses and that now we are not 
disclosing it because it would look bad. You are not aware of 
that?
    Ambassador Kennedy. I am also not aware that anybody in 
subject of the ARB got a bonus. I will confirm that, but I am 
not aware that they got bonuses.
    Mr. Meadows. So who made the decision, you or Secretary 
Clinton, to not be transparent with regard to bonuses?
    Ambassador Kennedy. I don't think it was either of us, but 
I have to go back and find out. I may have done something, but 
that is a level of detail----
    Mr. Meadows. If you will report back.
    I yield back. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Meadows.
    Mr. Stockman of Texas.
    Mr. Stockman. Thank you.
    I have to say after that brief exchange with my colleague, 
Mr. Meadows, my earlier colleague asked if you knew some words. 
And what I am puzzled at is, you earlier mentioned that you 
hadn't made a determination of what caused the attack, but on 
all of the talk shows we heard was video, video, video, video, 
including the President. But he was asking you if you knew some 
words, and I am going to ask you if you know some words. Yes or 
no. Do you know the word stonewalling?
    Ambassador Kennedy. Yes, sir.
    Mr. Stockman. Do you know the word cover-up?
    Ambassador Kennedy. Yes, sir.
    Mr. Stockman. Do you know the word scandal.
    Ambassador Kennedy. Yes, sir.
    Mr. Stockman. Okay. Well, I am going to yield the balance 
of my time to my good friend from California, Dana, because I 
feel that is what happened here today, and I think Mr. Meadows' 
line of questioning fits those three questions or definitions.
    Mr. Rohrabacher. Thank you very much for yielding to me.
    Let me just note there are two distinct views of this whole 
episode in American history. We have you telling us that you 
believe that since that murder of our Ambassador and three 
other Americans, that terrorist attack, that there has been a 
full court press on the part of the administration to bring 
those to justice and to get the word out to the American 
people. The opposite view was just expressed by my friend Mr. 
Stockman, what it seems to be is a year of obfuscation, 
stonewalling, denial, and cover-up. I think that it is vital 
for the American people to understand the truth of which of 
these views reflects reality.
    Let me ask you just a couple of questions. How many 
government employees, including the agency and State 
Department, et cetera, how many Federal Government employees 
were in Benghazi the night of the attack?
    Ambassador Kennedy. Madam Chair, I respectfully cannot 
answer questions that involve classified information in this 
session.
    Ms. Ros-Lehtinen. Well, would you be, if I could interrupt 
the gentleman, we could do that in a classified setting as 
early as tomorrow, the next day.
    Ambassador Kennedy. I am prepared to appear before this 
committee at any time----
    Ms. Ros-Lehtinen. Okay. All right. Okay. So let me ask you 
something. To your knowledge has any of these--because we have 
been told there are a number of figures out there in terms of 
maybe up to 40 people, 45 people present, some of whom or many 
of whom had skills enough to be engaged in defending our 
Ambassador and preventing that attack, or at least thwarting 
it--have any of those people, those who were there--of course 
you can't tell us how many--have any of them been asked not to 
cooperate with congressional or media inquiries or to take lie 
detector tests?
    Ambassador Kennedy. I am unaware of any State Department 
personnel being instructed like that, and the State Department 
does not utilize lie detector tests except in exceptional 
circumstances.
    Mr. Rohrabacher. Yeah. I am very happy. You know, look, 
weasel words. I am unaware of State Department. Did I ask State 
Department? I didn't. I don't think I asked about the State 
Department. I asked do you have any knowledge of any of those 
people who were on the scene--now, you can't tell us how many 
there were, but you know they were there--have any of them been 
told not to cooperate with a congressional investigation? Don't 
hedge it with I don't know the State Department people. That 
wasn't the question.
    Ambassador Kennedy. I am the Under Secretary of State for 
Management, sir, and can only answer questions about the State 
Department.
    Mr. Rohrabacher. All right, okay. Well, that is a good 
dodge as well.
    Let me ask you this. There is an Ambassador who has been 
murdered. We have three other people who have been murdered. It 
is a terrorist attack. Why is it the CIA, and why aren't they 
the ones doing this investigation? Why is it the FBI? I thought 
the FBI was supposed to be doing internal domestic 
investigations.
    Ambassador Kennedy. By statute, sir, the FBI is charged 
with the responsibility for the killing of any American citizen 
overseas. That is an FBI responsibility by statute.
    Mr. Rohrabacher. Okay.
    Ambassador Kennedy. The FBI obviously works with the CIA 
and works with the military, but that is a congressional 
statute that gives the FBI that responsibility.
    Mr. Rohrabacher. Gives them the sole responsibility?
    Ambassador Kennedy. The FBI is a law enforcement agency, 
sir.
    Mr. Rohrabacher. And this is not, and let me make it very 
clear, we are not talking about a crime in the United States. 
We are not talking about law enforcement. And this is one of 
the distinct differences between the administration and other 
people who disagree with its approach. What we are talking 
about here is a terrorist attack which is not a criminal 
matter, which is a matter of national security, which the CIA 
and all the rest of our intelligence agencies should have been 
involved in. Instead, we give it to people who are treating it 
as a crime, who don't want to go into Benghazi because they 
haven't been given permission. This is absolutely absurd, and I 
don't think that that is lost on the American people.
    Ambassador Kennedy. If I might, sir, the FBI is a member of 
the Intelligence Community. The FBI is both a national 
security, a law enforcement, and an intelligence agency.
    Mr. Rohrabacher. Now, you described this as breaking of a 
law. There are also basic law enforcers. Terrorism and 
terrorism threats to the United States is a security issue, and 
if the CIA and these other people are giving it over to our law 
enforcement, FBI, it is a mistaken decision from the top.
    Thank you.
    Chairman Royce [presiding]. Yes, we want to thank 
Ambassador Kennedy for his time here today.
    Mr. Rohrabacher. Yes, we do.
    Chairman Royce. As we have heard, the committee is deeply 
concerned with the lack of accountability at the State 
Department. Several members have outstanding questions. We have 
been trying for some time to get those documents directly. So 
we know that the Department will be answering those outstanding 
questions in a timely fashion, but again, we reiterate, we need 
those answers. We need those documents here at the committee.
    And we thank you again, Ambassador Kennedy, for your 
testimony today. We thank the members as well. We stand 
adjourned.
    Ambassador Kennedy. Thank you, sir.
    [Whereupon, at 12:49 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


          <F-dash>\<box><Rx><bullet><box><script-l><u-arrow> 
                      <lrg-box><F-dash><Register>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



     <F-dash>\<Hoarfrost>t<pound><star><loz><acctof>a<Rx><u-arrow> 
                     <Hoarfrost><F-dash><Register>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                <u-arrow> <Hoarfrost><F-dash><Register>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
                <Register><pound><variable><star><box>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
               <Hoarfrost>a<script-l><acctof><pound><Rx>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
                 <triangle><brit-pound><Rx><star>a<Rx>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
              <Hoarfrost>t<pound><star><loz><acctof>a<Rx>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
